<html>
<title> - PROTECTING EVERY CITIZEN: ASSESSING EMERGENCY PREPAREDNESS FOR UNDERSERVED POPULATIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    PROTECTING EVERY CITIZEN: ASSESSING EMERGENCY PREPAREDNESS FOR 
                        UNDERSERVED POPULATIONS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 23, 2019
                               __________

                           Serial No. 116-33
                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
39-416 PDF                WASHINGTON : 2020  



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director

                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric Richmond, Louisiana           Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4
The Honorable Bill Pascrell, a Representative in Congress From 
  the State of New Jersey:
  Prepared Statement.............................................     3

                               WITNESSES
                                Panel I

Major Louis V. Bucchere, Commanding Officer, Emergency Management 
  Section, New Jersey State Police:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Kelly Boyd, Access and Functional Needs Planner, Preparedness 
  Bureau/Emergency Management Section, New Jersey Office of 
  Emergency Management:
  Oral Statement.................................................    15
Ms. Elizabeth H. Curda, Director, Education, Workforce, and 
  Income Security, Government Accountability Office:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Ms. Marcie Roth, Chief Executive Officer, Partnership for 
  Inclusive Disaster Strategies:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26

                                Panel II

Ms. Luke Koppisch, Deputy Director, Alliance Center for 
  Independence:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Ms. Laurence Flint, M.D., New Jersey Chapter Representative, 
  American Academy of Pediatrics (AAP) Disaster Preparedness 
  Committee:
  Oral Statement.................................................    42
  Prepared Statement.............................................    44

                               APPENDIX I

Mr. Dorian Herrell, Emergency Management Coordinator, Newark, New 
  Jersey:
  Prepared Statement.............................................    51

                              APPENDIX II

Questions From Chairman Donald M. Payne, Jr. for Elizabeth H. 
  Curda..........................................................    53

 
    PROTECTING EVERY CITIZEN: ASSESSING EMERGENCY PREPAREDNESS FOR 
                        UNDERSERVED POPULATIONS

                              ----------                              


                         Tuesday, July 23, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                   Jersey City, NJ.
    The committee met, pursuant to notice, at 10:10 a.m., in 
the MacMahon Student Center, Saint Peter's University, 47 
Glenwood Avenue, Jersey City, New Jersey, Hon. Donald M. Payne, 
Jr. (Chairman of the subcommittee) presiding.
    Present: Representative Payne.
    Also present: Representative Pascrell.
    Mr. Payne. The Subcommittee on Emergency Preparedness, 
Response, and Recovery will come to order.
    The subcommittee is meeting today to receive testimony on 
``Protecting Every Citizen: Assessing Emergency Preparedness 
for Underserved Populations.''
    Good morning. We are here today to discuss how underserved 
populations are treated in emergencies. I am particularly 
pleased to be back home for this hearing, and I want to thank 
Saint Peter's University for hosting us. I appreciate my friend 
and colleague from New Jersey, Congressman Bill Pascrell, for 
joining me.
    I also want to thank our witnesses for being here today. 
Each of you bring a unique and insightful perspective to this 
topic based on the great work that you have been doing. 
Unfortunately, FEMA chose not to attend this hearing, as it has 
subsequent hearings, to directly hear from them--directly from 
those who have been working on the ground to make disaster 
response more equitable.
    Working through a partnership between local, State, and 
Federal officials, as well as local community groups, everyone 
does what they can to help their fellow citizens recover. 
Still, not all citizens have the same needs during or after a 
disaster, and a ``one size fits all'' approach does not work. 
Certain Americans, such as children, low-income individuals, or 
those with access and functional needs, may require special 
attention in the planning, response, and recovery phases of 
disasters.
    For instance, children are more likely to experience mental 
health distress, including showing signs of PTSD, after a 
disaster than adults. Those with access and functional needs 
may need some type of durable medical equipment in the midst of 
immediately following a disaster. Low-income individuals may 
not have the resources to evacuate before a storm or may not 
have the resources or knowledge to navigate the confusing maze 
of Federal disaster assistance programs after a disaster.
    The response gaps that exist today result in real 
consequences for those on the ground. George Washington 
University researchers found that of 2,975 people who died in 
Puerto Rico as a result of Hurricane Maria, the clear majority 
were those living in poverty and senior citizens, many of whom 
were likely people with disabilities who faced deadly mobility 
barriers to safety.
    After Sandy, children living in homes with minor damage 
were over 4 times likely to be sad or depressed and over twice 
as likely to have problems sleeping since the storm, as were 
children from homes with no damage. The impact of children 
after Hurricane Sandy is one of the reasons I have introduced 
the Homeland Security for Children Act, which would require the 
Department of Homeland Security to incorporate the needs of 
children into its emergency preparedness, response, recovery, 
and mitigation activities.
    Unless we do more to address and account for the needs of 
the disproportionately-impacted populations in our emergency 
planning, people will continue to suffer.
    The witnesses gathered here today will discuss the work 
that they have done to close the response gaps that lead to 
disparate outcomes. Through the discussion today, I am hopeful 
we can learn from each other's efforts and identify ways that 
coordination with the Federal Government can be improved for 
the next disaster.
    With that, I yield back the balance of my time.
    [The statement of Chairman Payne follows:]
               Statement of Chairman Donald M. Payne, Jr.
                             July 23, 2019
    Good morning. We are here today to discuss how underserved 
populations are treated in emergencies.
    I am particularly pleased to be back home for this hearing, and I 
want to thank Saint Peter's University for hosting us. I appreciate my 
friend and colleague from New Jersey, Congressman Pascrell, for joining 
me.
    I also want to thank our witnesses for being here. Each of you 
brings a unique and insightful perspective to this topic based on the 
great work you have been doing.
    Unfortunately, FEMA chose not to attend this hearing to hear 
directly from those who have been working on the ground to make 
disaster response more equitable. Despite their absence, the 
information the subcommittee learns today will assist us as we go back 
to Washington and continue our legislative and oversight duties.
    When an emergency or disaster strikes, all Americans are at their 
most vulnerable. New Jersey is no stranger to the devastation of 
disasters, with Hurricanes Irene and Sandy both affecting our community 
in recent years. Working through a partnership between local, State, 
and Federal officials, as well as local community groups, everyone does 
what they can to help their fellow citizens recover. Still, not all 
citizens have the same needs during or after a disaster, and a one-
size-fits-all approach does not work.
    Certain Americans, such as children, low-income individuals, or 
those with access and functional needs may require special attention in 
the planning, response, and recovery phases of disasters. For instance, 
children are more likely to experience mental health distress, 
including showing signs of PTSD, after a disaster, than adults. Those 
with access and functional needs may need some type of durable medical 
equipment in the midst or immediately following a disaster. Low-income 
individuals may not have the resources to evacuate before a storm or 
may not have the resources or knowledge to navigate the confusing maze 
of Federal disaster assistance programs after a disaster. The response 
gaps that exist today result in real consequences for those on the 
ground.
    George Washington University researchers found that of the 2,975 
people who died in Puerto Rico as a result of Hurricane Maria, the 
clear majority were those living in poverty and seniors--many of whom 
were likely people with disabilities who faced deadly mobility barriers 
to safety.
    After Sandy, children living in homes with minor damage were over 4 
times as likely to be sad or depressed, and over twice as likely to 
have problems sleeping since the storm, as were children from homes 
with no damage. The impact on children after Hurricane Sandy is one of 
the reasons I have introduced the Homeland Security for Children Act, 
which would require the Department of Homeland security to incorporate 
the needs of children into its emergency preparedness, response, 
recovery, and mitigation activities. Unless we do more to address and 
account for the needs of disproportionally-impacted populations in our 
emergency planning, people will continue to suffer.
    The witnesses gathered here today will discuss the work they have 
done to close the response gaps that lead to disparate outcomes. 
Through the discussion today, I am hopeful we can learn from each 
other's efforts, and identify ways that coordination with the Federal 
Government can be improved for the next disaster.
    With that, I yield back the balance of my time.

    Mr. Payne. With that, I now recognize my colleague from New 
Jersey, Mr. Pascrell.
    Mr. Pascrell. Mr. Chairman, thank you for inviting me to 
join you on this important field hearing.
    As you know, as a long-time member of the original Homeland 
Security Committee when it was formed right after 9/11, it is 
an honor to be part of today's hearing. I see that our State 
police are well-represented here, as we worked with them back 
then. Probably the best or at least one of the best in the 
entire country. I don't say that by blowing smoke. I mean it, 
having worked with them.
    I am very impressed with their central communication. As 
you know, that was one of the major problems during 9/11, and 
that is people couldn't communicate with one another--many 
departments, whether it be police or fire--and that was a 
major, major step. I think we have come a long way since then 
in terms of communication. Because you can't communicate, you 
really are going to not be what you need to be for the general 
public.
    So it is critical that we ensure everyone, that everyone is 
safe before, during, and after an emergency. We usually think 
about responding to the public and the community after a 
tragedy happens. So we are better planning now, doing better 
planning, thanks to the work that you have done on Homeland 
Security, Mr. Chairman.
    We want to know who the vulnerable populations are, like 
the elderly, like children, people with disabilities. Already, 
they already receive inequitable treatment in our society many 
times. Underserved, low-income populations need our help, too. 
Our disaster recovery efforts should not exacerbate this issue.
    Transit plans are important prior to an emergency. Many 
communities do not have emergency evacuations, whether it is a 
man-made or nature-made disaster. They already receive 
inequitable treatment, again. But transit plans are important 
prior to an emergency. After 9/11, buses and the New York MTA 
and the New Jersey Transit shuttled people out and equipment in 
to support first responders.
    The best-laid plans do not always work, though. A transit 
plan could have helped an estimated 100,000, 200,000 vulnerable 
people after Hurricane Katrina who lacked access to a private 
vehicle, but few transit drivers reported to work, and folks 
were affected.
    In 2008, the Transportation Research Board finalized a 
report, which I authorized at that time in the 2005 Federal 
highway bill, analyzing the role of transit in emergency 
evacuations. This report notes the importance of having a plan 
at all levels of government that includes transit, especially 
for our vulnerable populations.
    The report also calls for funding critical infrastructure, 
which we still have not done when it comes to the Hudson tunnel 
and Gateway project. Eisenhower built the--started and built, 
started the building anyway of the interstate highway system in 
this country. The main reason he did it was because of safety 
of the population.
    Because we had vulnerable folks, but we also--the country 
was vulnerable. Everybody was vulnerable. We cannot leave 
anybody behind. We must have a plan. As the saying goes, ``An 
ounce of prevention is worth a pound of cure.''
    We are good at going after something after it occurs. We 
are still practicing on preparing and preventing these things 
from happening. So I am honored to be on the panel. I am 
anxious to hear the panel, and we will get to their questions, 
and I have a couple of questions later on.
    Thank you.
    Mr. Payne. Thank you, Mr. Pascrell. Other Members are 
reminded statements may be submitted for the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             July 23, 2019
    Good morning. I would like to thank Chairman Payne and Ranking 
Member King for holding today's hearing.
    It is unfortunate that FEMA has decided not to participate today. 
Their absence undermines the subcommittee's ability to conduct 
meaningful oversight and sends a chilling message to underserved 
populations who are affected by disasters the most and who generally 
depend on FEMA the most.
    Underserved populations are more susceptible to the risks 
associated with disasters and following disasters, and it is 
significantly more difficult for them to recover. Having experienced 
Hurricane Katrina, I know how strenuous going through the basic 
emergency response and recovery activities can be for communities, and 
how this is especially so for individuals with access and functional 
needs, children, the elderly, and the poor. For example, during 
Hurricane Katrina, the average income of those who did not evacuate was 
$19,500, and only 54 percent of those who stayed had a car.
    In the aftermath of Hurricane Sandy, many low-income, elderly, and 
disabled survivors remained in their public housing complexes, despite 
having no power or heat, due to a lack of transportation and generally 
having no other place to go. These and other issues concerning 
vulnerable populations influenced enactment of the Post-Katrina 
Emergency Management Reform Act of 2006, which established the director 
of the Office of Disability Integration and Coordination to ensure the 
unique needs of the disability community are considered and addressed 
in FEMA's emergency activities.
    I am also proud of the work the Committee on Homeland Security has 
done through the years to address the needs of vulnerable and 
underserved populations in times of emergency. I commend Chairman Payne 
for his bill, the Homeland Security for Children Act, which would 
ensure that children's needs are included in Department of Homeland 
Security-wide activities and would ensure that there is established a 
children's technical expert within FEMA. Senator Elizabeth Warren and I 
requested the Government Accountability Office review the impact 
Federal disaster programs have on socioeconomic inequality.
    The need to elevate emergency preparedness, response, and recovery 
efforts for vulnerable and underserved populations is all too clear, 
and for that I look forward to engaging with the witnesses to get a 
better understanding of how the Federal Government can better serve 
them in emergency. With extreme weather events increasing in frequency 
and intensity, it is critical that we continue to do what is necessary 
to improve emergency preparedness for vulnerable and underserved 
populations. Every American deserves that in times of disaster, and I 
am pleased the subcommittee is taking time today to figure out how we 
can improve.

    Mr. Payne. I welcome our first panel of witnesses. Our 
first witness is Major Lou Bucchere, who is the commanding 
officer of the Emergency Management Section within the New 
Jersey State Police. This is Major Bucchere's second time 
before this subcommittee, and I thank him for coming.
    Next, Ms. Kelly Boyd is the access and functional needs 
planner for New Jersey's Office of Emergency Management. We 
have Ms. Elizabeth Curda is the director for Government 
Accountability Office's Education, Workforce, and Income 
Security Division. Last, we have Ms. Marcie Roth is the CEO of 
the Partnership for Inclusive Disaster Strategies.
    Welcome, all of you.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes, beginning with Major Bucchere.

   STATEMENT OF MAJOR LOUIS V. BUCCHERE, COMMANDING OFFICER, 
     EMERGENCY MANAGEMENT SECTION, NEW JERSEY STATE POLICE

    Major Bucchere. Good morning, Chairman Payne and 
Congressman Pascrell. On behalf of the State Director of 
Emergency Management, Colonel Patrick J. Callahan, I would like 
to thank you for the opportunity to testify here today.
    I am Major Louis Bucchere, commanding officer of the New 
Jersey Office of Emergency Management. I am accompanied by Ms. 
Kelly Boyd, who serves as NJOEM's access and functional needs 
planner. Ms. Boyd and I are honored to be here today to share 
some of New Jersey's experiences and lessons learned in 
emergency management and to discuss preparedness for vulnerable 
populations.
    The New Jersey emergency management community is committed 
to providing fair and equitable emergency management resources 
to our residents and minimizing barriers to obtaining services. 
We do this by including individuals with disabilities and 
others with access and functional needs, advocacy groups, 
organizations, community groups, and faith-based organizations 
in our emergency management program, providing them not only 
with a voice in emergency management, but a role as well.
    That role can extend from personal preparedness to working 
as an emergency manager, to volunteering, to participating on 
working groups and other collaborative efforts to ensure that 
our mutual goals are achievable. In short, we look at each 
person not only as someone who may need our services, but also 
as a person who can contribute to a more resilient and self-
reliant New Jersey.
    New Jersey is no stranger to natural disasters. During the 
past 10 years, we faced hurricanes, numerous nor'easters, 
winter storms, wildfires, wind events, and floods. Each of 
these events involved unique circumstances and required us to 
take a hard look at the adequacy of planning and response 
efforts, our collaborative networks, and impacts to individuals 
and communities. Most importantly, we learned about the 
significant challenges faced by some of our vulnerable 
residents, but we also learned how to incorporate their 
experience into the planning process to provide the services 
they need, not the services we think they need.
    Although it has been nearly 7 years since Hurricane Sandy, 
it remains at the forefront of discussions for continuous 
evaluation of response operations, improvements in planning, 
and building capabilities. Post Sandy, the emergency management 
community recognized that we had to make substantial 
improvements with outreach to provide better, more efficient 
services to our residents, and to ensure that staff and 
volunteers have all the tools required for an effective 
response.
    Although New Jersey is a resource-rich State, our 
experiences in Sandy showed the collaborative networks required 
for effective communications and service delivery weren't as 
robust as needed and didn't connect us well enough to the 
diverse communities we serve. Also, while many plans existed at 
the State and local levels, more coordinated training exercises 
of those plans was required, especially regarding inclusion and 
participation by the DAFN population.
    In the aftermath of Sandy and other events that have 
impacted New Jersey, our emergency management community at all 
levels within the State has engaged in the continuous 
collaborative review and evaluation of response, planning, 
training, and exercises. We have increased focus on 
relationship building across all levels, with the end goal of 
inclusive, whole-community engagement.
    This includes stakeholders across the State and local 
level, advocacy groups, and community- and faith-based 
organizations that serve DAFN populations, older adults, and 
low-income communities. The concerns voiced by vulnerable 
populations go beyond issues identified during Sandy. 
Transportation accidents, wildfires, active-shooter responses, 
and other events across the Nation may generate unique 
preparedness concerns for segments of vulnerable populations 
that must also be addressed as a part of our planning.
    Collaborative planning at the State level is spearheaded 
through the State emergency management program's stakeholders, 
also known as SEMPS, which brings together emergency management 
staff from key State agencies, nongovernmental organizations, 
community groups, Federal partners, and the county offices of 
emergency management. This group comes together on a monthly 
basis.
    In fact, most of these emergency managers are on a first-
name basis with each other, as well as the county emergency 
management coordinators. The relationships developed through 
this network provide integral support for vulnerable 
populations and ensure that the emergency management community 
at the local level is able to draw upon and connect with the 
necessary resources to support emergency management programs.
    Ms. Boyd's testimony will address some of the specifics of 
the excellent work being done by the State and local 
collaborative planning groups to enhance DAFN preparedness and 
inclusion in emergency management. Although New Jersey has come 
a long way since Sandy, we know that we have many tasks ahead 
of us. We are confident, however, that our emergency managers 
and residents are committed to a stronger, more resilient New 
Jersey with equal access to services for everyone.
    I thank you for this opportunity to testify to this 
subcommittee.
    [The prepared statement of Major Bucchere follows:]
                Prepared Statement of Louis V. Bucchere
                             July 23, 2019
    Good morning Chairman Payne, and other Members of the subcommittee. 
On behalf of Colonel Patrick J. Callahan of the New Jersey State 
Police, who also serves as the State director of emergency management, 
I would like to thank you for the opportunity to testify here today.
    I am Major Louis Bucchere, commanding officer of the New Jersey 
State Police Emergency Management Section, known as the New Jersey 
Office of Emergency Management (NJOEM). I am accompanied today by Ms. 
Kelly Boyd, who serves as NJOEM's Access and Functional Needs Planner. 
Ms. Boyd and I are honored to be here to share some of New Jersey's 
lessons learned from Hurricane Irene, Superstorm Sandy, and other 
incidents with regard to planning and preparedness for vulnerable 
populations, as well as collaborative State-wide planning initiatives 
for vulnerable populations.
    The New Jersey emergency management community is committed to 
providing fair and equitable emergency management services and 
resources to each of our residents, as well as minimizing barriers and 
impediments to obtaining services. We do this by actively including 
individuals with disabilities and others with access and functional 
needs (DAFN), advocacy groups, community groups, and faith-based 
organizations in our emergency management program--providing them with 
not only a voice in emergency management, but a role as well. That role 
can extend from personal preparedness to working as an emergency 
manager to participating in any number of volunteer programs, working 
groups, advocacy groups, and other collaborative efforts to ensure that 
our mutual goals are achievable. In short, we look at each person, not 
only as someone who may need our services, but also as a person who can 
contribute to a more resilient and self-reliant New Jersey. 
Preparedness and inclusion are key to this empowerment.
    New Jersey is no stranger to natural disasters. During the prior 10 
years, we have had numerous Nor'easters, winter storms, floods, wind 
events, and of course Hurricane Irene, Tropical Storm Lee, and 
Superstorm Sandy. Each of these incidents involved unique circumstances 
and required us to take a hard look at the adequacy of State and local 
planning and response efforts, our collaborative networks and access to 
resources, and the short- and long-term impacts to individuals and 
communities. Most importantly, we learned about the significant 
challenges faced by some of our more vulnerable residents--but we also 
learned how to incorporate their experience and expertise into the 
planning process to provide the services they need, not the services we 
think they need.
    The term ``vulnerable populations'' encompasses a diverse array of 
individuals. Although traditionally low-income families and individuals 
have not been identified as a separate planning group, low-income 
families may be more likely to require sheltering and evacuation 
assistance than families with greater financial resources, and 
therefore require emergency management services during both large and 
small incidents. Other groups considered vulnerable are individuals 
with disabilities and others with access and functional needs, which 
encompass those who have mobility impairments, developmental 
disabilities, mental health conditions, and critical transportation 
needs, and communication barriers. Residents may also develop 
disabilities and access and functional needs as they age. Additionally, 
veterans and first responders may suffer long-term adverse physical and 
behavioral consequences from their service.
    Some key statistics for the State are contained in the following 
table:

                   DISABILITY STATISTICS IN NEW JERSEY
      From the 2017 American Community Survey, as provided by NJLWD
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Total civilian noninstitutionalized population..........       8,902,432
Total civilian population with a disability.............         914,392
Population with a hearing difficulty....................         221,680
Population with a vision difficulty.....................         165,293
Population with a cognitive difficulty..................         334,209
Population with an ambulatory difficulty................         488,741
Children with a disability (17 and under)...............          70,560
Adults with a disability (18-64)........................         428,932
Seniors with a disability (65+).........................         414,900
------------------------------------------------------------------------

                            superstorm sandy
    Although it has been nearly 7 years since Superstorm Sandy wreaked 
havoc on New Jersey, it remains at the forefront of discussions for 
continuous evaluation of response operations, improvements in planning, 
and building capacity and capabilities. Perhaps most importantly, Sandy 
shined a light on areas for improvement with respect to emergency 
preparedness for vulnerable populations.
    During Superstorm Sandy, local emergency managers were overwhelmed 
by storm preparations and response efforts. Shelter operations 
presented many challenges and frustrations to both residents and 
service providers. Many of our residents had never experienced a storm 
of that magnitude and were not prepared to evacuate to emergency 
shelters or to shelter in place.
  <bullet> Shelters were flooded with large numbers of residents who 
        required various levels of personal care assistance, 
        medications, durable medical equipment, and other support 
        services.
  <bullet> Individuals went to shelters without a full understanding of 
        the minimal conditions provided in an evacuation shelter. This 
        was particularly difficult for older adults who evacuated to 
        shelters from 55+ communities and for families with small 
        children who found it difficult to adjust to shelter life, as 
        well as for those with DAFN.
  <bullet> Often, residents did not bring necessary supplies with them 
        because they assumed these items would be available in the 
        shelters.
  <bullet> Older adults and others did not have necessary prescription 
        medications, or did not know the names/dosages of their life-
        sustaining medications.
  <bullet> Disruptions to power supplies at the shelters created 
        problems for individuals with medical devices requiring power, 
        and power outages in impacted communities impeded access to 
        prescription drugs, dialysis treatment, and other services.
    Many shelter workers and volunteers were not trained to assist 
individuals with autism, developmental disabilities, and PTSD, or 
address the needs of methadone clients. Some shelter staff were not 
familiar with communication boards and other aids available to foster 
interactions with individuals who do not speak English. In some 
instances, there was confusion regarding rules for service animals and 
comfort animals in shelters. Individuals who required medical 
monitoring went to overcrowded hospitals when local governments were 
not able to provide adequate medical needs sheltering--only to be 
returned back to medical needs shelters. Staff at medical needs 
shelters, working without the benefit of previously-employed plans and 
procedures, faced shortages of equipment, staff, and trained medical 
personnel.
    We also encountered challenges throughout the State with 
communications and communication networks. Language barriers prevented 
some residents from having full access to necessary preparedness 
messaging. Individuals arriving at reception centers, shelters, and 
other locations struggled with the lack of translators, which hampered 
service delivery and casework. Ensuring seamless communications with 
those who are deaf and hard of hearing and/or blind and visually 
impaired was also challenging.
  <bullet> During the recovery phase of Sandy, there were challenges in 
        disseminating recovery information to non-English speaking 
        communities, which impeded their access to recovery funds.
  <bullet> Some groups were disenfranchised due to the absence of 
        political influences or networks and alliances within their 
        community.
  <bullet> Older adults and others had difficulty navigating websites 
        to obtain recovery information and file applications.
    Sandy disrupted daily life for tens of thousands of residents, 
including young children who suffered trauma from being displaced and 
the disruption to their daily routines. Some displaced children were 
not able to get to school from their shelters until the local boards of 
education were able to identify their location and arrange busing. Some 
transportation-dependent individuals were sent to shelters distant from 
their jobs and communities, which affected their ability to work.
    While many individuals worked tirelessly during Sandy to provide 
necessary services to our impacted residents, the emergency management 
community recognized that we had to make substantial improvements with 
outreach to provide better, more efficient services to our vulnerable 
residents, and to ensure that our staff and volunteers have all the 
tools and resources required for an effective response. It was also 
clear that the cadre of emergency management personnel, emergency 
workers, and volunteers was not sufficient to respond to the needs of 
New Jersey's 9 million residents; ``all hands on deck'' would be 
required.
    Although New Jersey is a resource-rich State, our experiences in 
Sandy showed that the collaborative networks required to leverage our 
agencies, partners, NGO's, and community and faith-based organizations 
were not as robust as they could have been to enable more efficient and 
effective communications and service delivery for vulnerable 
populations. Also, while many plans existed at the State and local 
levels, more coordinated training and exercising of those plans was 
required--especially with respect to the inclusion of enhancements for, 
and participation by, the DAFN population.
                 collaborative and inclusive solutions
    In the aftermath of Sandy and other incidents that have impacted 
New Jersey, our emergency management community at all levels within the 
State has engaged in a continuous collaborative review and evaluation 
of responses to incidents, planning, training, and exercising.\1\ More 
importantly, we have an increased focus on relationship building across 
all levels--with the end goal of inclusive, whole community engagement. 
This emanates from the top down and the bottom up, and emphasizes the 
inclusion of stakeholders across all realms at the State and local 
level, such as Federal, State, and local agencies, advocacy groups, and 
community and faith-based organizations that serve DAFN populations, 
older adults, and low income communities.
---------------------------------------------------------------------------
    \1\ The concerns voiced by vulnerable populations go beyond the 
issues identified during Sandy. Transportation accidents, wildfires, 
active-shooter responses, and other incidents across the Nation may 
generate unique preparedness concerns for segments of vulnerable 
populations that must also be addressed as part of our planning.
---------------------------------------------------------------------------
    Collaborative and inclusive planning is the best solution for 
serving the diverse needs of our vulnerable populations. State-level 
planning groups, working in tandem with local emergency managers, 
ensure that best practices and access to resources and training are 
available to low income urban and rural areas, as well as the wealthier 
communities. NJOEM ensures coordination between State planning efforts 
and initiatives with local practices, while respecting ``home rule'' 
and recognizing that local leaders, groups, and emergency managers 
understand their community's needs and capabilities.
  <bullet> Task forces and planning groups have been established at all 
        levels to foster collaboration, identify gaps and resources, 
        and develop inclusive plans by harnessing the subject-matter 
        expertise of the DAFN community and other vulnerable 
        populations.
  <bullet> These individuals and groups are now integrated in the 
        emergency management community. Because they are in the best 
        position to voice their concerns and identify solutions and 
        resources, they are an integral part of the solution.
    Collaborative planning at the State level is spearheaded through 
the State Emergency Management Program Stakeholders (SEMPS), which 
brings together emergency management staff from key State agencies, 
NGO's, community groups, Federal partners, and the county offices of 
emergency management. This group meets and/or exercises on a monthly 
basis. In fact, most of the key department emergency managers for major 
agencies and organizations serving the State are on a first-name basis 
with each other and with the County Emergency Management Coordinators. 
While the SEMPS group focuses on wide-ranging planning initiatives at 
the State level, many of the relationships developed through the SEMPS 
meetings and exercises provide integral support for initiatives for 
vulnerable populations, and ensure that the emergency management 
community at the local level is able to draw upon and connect with 
social services, programs, counseling, and access to necessary 
resources to support emergency management programs.
    Key SEMPS partners, such as the NJ Department of Human Services, NJ 
Department of Health, NJ Department of Children and Families, NJ 
Department of Education, American Red Cross, NJ 2-1-1, NJ Board of 
Public Utilities, NJ Department of the Treasury, NJ Department of 
Transportation, NJ Department of Labor and Workforce Development, the 
NJ Office of Homeland Security and Preparedness (OHSP), FEMA, and many 
other SEMPS agencies serve as subject-matter experts and provide 
resources to enhance planning and preparedness initiatives for the 
State's most vulnerable populations. They also participate in the task 
forces and planning groups established to facilitate preparedness for 
the DAFN community and other vulnerable populations. For instance, 
outreach programs such as OHSP's safety initiative for faith-based 
organizations can serve as an entry point for other preparedness 
initiatives in vulnerable communities.
    One of our SEMPS partners, the State Library, developed a disaster 
preparedness and outreach plan to support and encourage the use of 
local libraries for effective disaster preparedness, response and 
recovery within local communities. Drawing upon best practices from 
Sandy, local libraries can serve as accessible meeting places. 
Librarians across the State are encouraged to have disaster plans, 
develop relationships with community emergency managers, and be 
prepared to disseminate important disaster information and assist 
residents with accessible internet access and research. This support 
can be extremely valuable for low-income individuals who may not have 
access to computers, older adults and others who may not be adept at 
using computers or searching for information, or others who need 
accessible technology.
    Another example of collaborative preparedness for the DAFN 
community is the dynamic engagement of SEMPS partners in the promotion 
of State's Register Ready program administered by NJOEM:
  <bullet> NJ 2-1-1 provides assistance in multiple languages and 
        through accessible means for registering vulnerable individuals 
        in Register Ready.
  <bullet> The Department of Education disseminated Register Ready 
        information through the local school districts.
  <bullet> The American Red Cross has been distributing flyers for the 
        Register Ready Program as part of its Home Fires Campaign.
  <bullet> The Board of Public Utilities engaged public utility 
        companies to disseminate Register Ready information with their 
        monthly bills, in newsletters and emails, and also on their 
        websites.
  <bullet> Other agencies, such as the NJ Department of Human Services, 
        the NJ Department of Labor and Workforce Development, and the 
        NJ Motor Vehicle Commission also post and disseminate Register 
        Ready information to their vulnerable clients.
          collaborative dafn initiatives--core advisory groups
    NJOEM is a strong a proponent of the Core Advisory Group (CAG) 
concept developed by FEMA to involve individuals with DAFN in all 
aspects of emergency management to foster the whole community approach. 
Similar to the SEMPS group, the overarching goal of a CAG is to promote 
inclusive emergency management by encouraging collaboration and 
partnerships between community disability stakeholders and emergency 
managers. Knowledge of the specific needs of this often-overlooked 
vulnerable population enables emergency managers to become more 
inclusive in their planning efforts, as various disability stakeholders 
are able to bring unique resources to the table to assist them in their 
planning.
    CAGs are encouraged to meet on a regular basis to discuss any 
issues, best practices, new legislation, and litigation to bring about 
positive changes in how emergency services are provided to the DAFN 
community in the event of a disaster.
State Core Advisory Group
    A State-level CAG, known as the New Jersey Group for Access and 
Integration Needs in Emergencies and Disasters (NJGAINED), chaired by 
the New Jersey Department of Human Services and co-chaired by NJOEM, 
has been in place for over 12 years. The group includes representation 
from many State agencies and offices that service the DAFN community, 
such as the Division of Disability Services, the Division of Deaf and 
Hard of Hearing, and the Division of Developmental Disabilities. 
NJGAINED also includes disability advocacy groups and other 
organizations, including Disability Rights New Jersey, Centers for 
Independent Living, State-wide Parent Advocacy Network and others, as 
well as representation from faith-based organizations and county CAGs. 
The FEMA Region 2 Disability Integration Advisor and Disability 
Integration Specialist, as well as the FEMA Integration Team assigned 
to NJ, also participate in NJGAINED meetings.
    During Superstorm Sandy, which occurred during 2012 just as FEMA 
was rolling out its Disability Integration Advisors program, NJGAINED 
provided critical support to the DAFN community and served as subject-
matter experts to the State and local emergency managers. For example:
  <bullet> NJGAINED members banded together during the Sandy response 
        and recovery efforts to field requests for assistance.
  <bullet> The NJ Division of Disability Services received many 
        requests for help through its Information & Referral hotline. 
        Many of the requests were related to needs for durable medical 
        equipment, wheelchair ramp repairs, and/or housing.
  <bullet> NJGAINED assisted in sending out emergency alerts and made 
        calls to individuals to see if help was needed. Members also 
        shared important updates and provided information on how 
        individuals with DAFN could obtain assistance after the storm.
  <bullet> NJGAINED members participated in daily briefings to share 
        concerns.
  <bullet> Through the intervention of NJGAINED, one of the NJ Centers 
        for Independent Living also partnered with FEMA to set up an 
        Individual Assistance Center in their office.
    One of NJGAINED's current initiatives includes establishing a 
State-wide Functional Assessment and Service Team (FAST). A FAST serves 
as a strike team to conduct assessments of individuals with DAFN at 
mass care shelters or other areas of refuge. A FAST also conducts 
aggregate assessments of individuals with functional needs for the 
purposes of supplying disaster intelligence and damage assessments, 
enhancing resource management, and improving disaster recovery 
planning. A concept of operations was recently drafted and the group is 
in the process of identifying State members to be a part of the team.
    In addition, NJGAINED is working on DAFN emergency preparedness 
brochures and promoting mass care trainings. The group also continues 
to evaluate current events in emergency management and promote best 
practices for DAFN populations.
County Core Advisory Groups
    During the last few years, with the support of FEMA and NJOEM, 
several New Jersey counties have formed CAGs, and many other counties 
have been in discussions with local disability advocacy groups to 
develop CAGs in their counties. Because NJOEM believes that CAGs 
represent an ideal solution to effective and inclusive collaborative 
planning for DAFN preparedness, we have tied funding to this 
initiative. The State now requires each county to participate in the 
CAG process as part of its Emergency Management Agency Assistance 
(EMAA) grant work plan. Additionally, FEMA is currently developing a 
CAG toolkit and presentation to help guide counties in developing CAGs.
    The county CAGs have taken on significant projects and initiatives, 
many of which are being replicated in other counties or supported at 
the State level, and include:
  <bullet> Developing and conducting a Community Reception Center 
        Radiation Emergency exercise, focused on serving the DAFN 
        population.
  <bullet> Hosting the State's first DAFN Overnight Emergency Shelter 
        Simulation to provide emergency responders with experience in 
        working with the DAFN community and to familiarize members of 
        the DAFN community with a shelter experience.
  <bullet> Creating a DAFN Active-Shooter Preparedness video with tips 
        on how law enforcement and the DAFN community should best 
        respond to an incident.
    <bullet> The DAFN Active-Shooter Preparedness Working Group is 
            spearheaded by a County CAG with support from State 
            agencies and NJOEM.
    <bullet> Currently, the group is organizing an active-shooter 
            preparedness training and a tabletop exercise for key staff 
            from all NJ dialysis centers.
  <bullet> Serving on a panel at a summit on school safety hosted by 
        the New Jersey Council on Developmental Disabilities to address 
        students with disabilities and active-shooter incidents.
  <bullet> Conducting an outreach event and panel discussion on 
        Emergency Preparedness and People with Disabilities as part of 
        Disability Awareness Month in October.
  <bullet> Developing the Pathways to Preparedness Guide for vulnerable 
        individuals to prepare for all types of emergencies, created at 
        the request of the State-wide Independent Living Council.
  <bullet> Hosting classes for inclusive Community Emergency Response 
        Team (CERT) training.
  <bullet> Staffing emergency preparedness booths at expos and 
        conferences, attended by thousands of vulnerable residents, 
        their caregivers, and those who work in the field.
    As a result of the strong relationships developed with FEMA through 
their support of the CAGs and NJGAINED, the NJOEM AFN Planner and 
Middlesex County's Deputy Emergency Manager also provided input as 
staff from FEMA Region 2 demonstrated use of the Disability Resource 
Database, the Region's first database to offer disability-related 
resources that can be utilized by emergency managers and other 
stakeholders during emergencies.
  emergency management integration through the county afn coordinators
    To enhance coordination with the county and local emergency 
management community, each county in New Jersey is required to appoint 
a County AFN Coordinator to oversee local emergency management planning 
pertaining to vulnerable populations, provide trainings, assist with 
issues in vulnerable communities as they arise, and coordinate with the 
NJOEM AFN Planner. The County AFN Coordinator is also expected to 
attend the County CAG meetings to ensure consistency and integration. 
The County AFN Coordinators meet quarterly along with other stakeholder 
groups, including Centers for Independent Living and other advocacy 
groups, as well as the many State agencies that plan for the State's 
vulnerable populations. These meetings provide a forum for key partners 
to provide briefings, best practices, and information on new 
legislation, and to discuss areas of concern. Training on various 
topics regarding vulnerable populations in emergency management is 
provided at each meeting.
    Some of the recent preparedness and planning initiatives and 
trainings addressed by the County AFN Coordinators include:
  <bullet> Enhancing Register Ready outreach, and upgrading the 
        system's search capabilities, and GIS and mapping functions.
  <bullet> Discussing new or proposed legislation with DAFN impact.
  <bullet> Evaluating formation of County Functional Assessment Service 
        Teams and Core Advisory Groups.
  <bullet> Working with suppliers and entering into MOUs for medical 
        equipment and supplements that might be needed during 
        emergencies.
  <bullet> Receiving trainings on a variety of topics, including 
        service animals; renal dialysis preparedness and response; 
        utilizing Register Ready; and accommodating vulnerable 
        populations at shelters and Community Reception Centers.
  <bullet> Partnering with FEMA to keep current on regional and 
        National projects, such as the Region's new Disability Resource 
        Database and the NJ Mapping Project, which looks at where 
        vulnerable populations reside in New Jersey.
  <bullet> Working with partners to host a number of trainings, 
        including Emergency Preparedness: Access and Functional Needs 
        in the Disability Community; Autism Shield; Care Assistant 
        Fundamentals; Responding to the Disabilities and Access and 
        Functional Needs Community (a CERT workshop); and Emergency 
        Preparedness Tips for Families of Individuals Who Have Autism, 
        among others.
  <bullet> Participating in exercises, such as the Central East 
        Regional Coalition Emerging Infectious Disease/Ebola exercise 
        and discussion.
        new jersey state sheltering task force and subcommittees
    The New Jersey State Sheltering Task Force (STF) is a multi-agency 
planning team formed in 2014 with a view toward understanding the 
capabilities and gaps in sheltering throughout the State, and to 
identify areas for improvement, including those experienced by 
vulnerable populations during Superstorm Sandy. The STF has visited 
with and assessed sheltering gaps and best practices in each of the 21 
counties, as well as several larger urban areas across the State. To 
address the most common problems/gaps identified among the counties and 
urban areas, the STF established 3 subcommittees: DAFN; Staffing; and 
Facilities. These subcommittees have issued guidance and 
recommendations for whole-community shelter training curriculum, 
shelter facility supply lists and ADA guidelines, and DAFN preparedness 
information for sheltering and evacuation.
                             register ready
    Register Ready is a secure and voluntary database, administered by 
NJOEM, and designed for residents to enter their personal and DAFN-
specific information so that emergency response agencies can better 
plan to serve them in a disaster or other emergency. Currently, the 
Office of the Public Guardian requires that vulnerable children be 
registered in Register Ready based on Court Orders.
    Register Ready serves as a planning tool for emergency managers to 
gain a better understanding of the needs of individuals living in their 
communities to help facilitate planning for sheltering, evacuation and 
other emergencies. At present, approximately 22,000 New Jersey 
residents and over 300 facilities are registered in the Register Ready 
database. The system also offers GIS mapping capabilities to allow 
emergency managers to hone in on individuals who may need assistance if 
a disaster strikes a particular area.
    Register Ready has been used by emergency managers for localized 
incidents as well as large incidents, such as Superstorm Sandy. County 
and local staff with administrative rights can access information for 
residents in their jurisdiction, and receive periodic trainings on how 
to use the system. Information in Register Ready can be used to 
generate reverse 9-1-1 calls, support wellness checks, and identify 
special needs before, during, or after an incident. Information 
obtained from Register Ready can help emergency managers plan for 
specific needs in their community, such as preparing for oxygen needs, 
durable medical equipment and other supplies in shelters; facilitating 
accessible transportation to shelters; and arranging for interpreters 
and translation tools.
                         training and guidance
    Working through the NJOEM AFN Planner, stakeholders at the Federal, 
State, and local levels have developed and offered training and 
guidance for individuals, families, emergency management personnel, 
first responders, disability advocacy groups, volunteers, and other 
partners.
  <bullet> NJOEM, with the support of the Progressive Center for 
        Independent Living (PCIL), developed a module for the CERT 
        curriculum entitled Responding to the Disabilities and Access 
        and Functional Needs Community.
  <bullet> NJOEM and the Department of Human Services partner to offer 
        Emergency Preparedness: Access and Functional Needs in the 
        Disability Community to enhance emergency planning involving 
        the disability community.
  <bullet> The State's Medical Reserve Corps (MRC), PCIL, and the 
        American Red Cross developed a program to train MRC and CERT 
        members to serve as personal care assistants in shelters.
  <bullet> Emergency Preparedness Tips for Families of Individuals Who 
        Have Autism, a workshop developed by The Alliance Center for 
        Independence and NJOEM, provides essential tips to help 
        caregivers prepare to withstand various types of emergencies. 
        There is also another version of the presentation that provides 
        autism-specific tips for emergency managers and first 
        responders.
  <bullet> The State periodically offers Autism Shield, a workshop 
        provided by Parents of Autistic Children, to law enforcement, 
        public health workers, and emergency management officials from 
        around New Jersey. This workshop provides participants with 
        information to enhance recognition of a person with autism and 
        identify appropriate response methods for first responders 
        working in field situations.
                               exercises
    The State is a strong proponent of inclusive exercises at the State 
and local level, with input and participation by the NJOEM AFN Planner, 
CAGs, and disability advocacy groups. The State plans for all hazards, 
including natural disasters, incidents at the State's nuclear power 
plants, rail/air/other transportation incidents, active-shooter 
situations, and other incidents. Recent exercises included:
  <bullet> the Newark Airport 2018 Full-Scale Exercise, for which the 
        NJOEM AFN Planner served as an evaluator
  <bullet> the annual LIFT exercise at Trenton-Mercer Airport to help 
        staff learn to interact with the autism community
  <bullet> the annual State-level functional emergency management 
        exercises addressing radiological incidents, transportation 
        incidents, and hurricane responses, which also tested DAFN 
        components of sheltering and evacuation
  <bullet> the County DAFN overnight shelter simulations that provided 
        training to DAFN individuals as well as emergency management 
        staff and volunteers
  <bullet> the NJ Transit annual rail drills involving CAG 
        participation and evaluation.
                        summary--lessons learned
    In addition to the foregoing, some of the specific lessons learned 
by our emergency management community from the responses to Sandy and 
other incidents with respect to vulnerable populations are:
  <bullet> It is necessary to clarify expectations of both the 
        emergency management community and vulnerable populations to 
        minimize misunderstandings.
    <bullet> Emergency managers and community leaders must gain a 
            better understanding of their constituents.
  <bullet> Registries, such as the State's Register Ready program and 
        other local registries, can help emergency managers and first 
        responders plan for the needs of vulnerable populations.
    <bullet> Vulnerable populations should understand the limitations 
            of local emergency plans and resources and take steps to 
            increase individual preparedness.
    <bullet> Emergency managers should be cognizant of the needs of 
            their local vulnerable populations, as well as the 
            resources that they bring to the table.
    <bullet> Federal funding to support community outreach and 
            preparedness efforts at the local level would enhance 
            preparedness efforts and improve response and recovery.
  <bullet> Effective and efficient emergency management requires 
        personal preparedness on the part of all individuals, and 
        vulnerable populations will require tailored preparedness 
        materials.
    <bullet> Individuals need specific information regarding what to 
            expect in sheltering, what to pack for evacuation and 
            sheltering, how to obtain information about evacuation and 
            sheltering, and how to make an emergency plan.
    <bullet> Individuals should understand when and how to shelter in 
            place, and what the practical consequences are for 
            registering with State or local special needs registries, 
            with the utility companies, etc.
    <bullet> Websites that convey emergency management information 
            should be compatible with accessible screen reader programs 
            and provide options for alternate languages, if possible.
  <bullet> Local governments and agencies should collaborate with VOAD 
        members and non-profits, such as NJ 2-1-1, to enhance and 
        amplify emergency messaging, and provide vulnerable residents 
        with information on where they can find assistance and 
        information for recovery programs, warming, and cooling 
        shelters.
  <bullet> NJOEM social media platforms (e.g. Facebook and Twitter), 
        ready.nj.gov and Register Ready are compatible with accessible 
        screen reader programs and have multi-language translation 
        capability.
  <bullet> Alerts and warnings, and preparedness information should be 
        disseminated in multiple formats to ensure receipt by those 
        with visual or hearing impairments.
    <bullet> Communication boards and other aids should be available in 
            shelters and other locations.
    <bullet> Community and faith-based organizations should be tapped 
            to provide translation services and amplify messaging to 
            assist non-English speaking populations.
    <bullet> Emergency managers should explore new communication 
            technologies and develop relationships with individuals 
            within the community or through volunteer agencies who can 
            serve as translators, ASL interpreters, etc. in shelters 
            and other service locations.
    <bullet> Federal funding should be available to assist with 
            acquiring adaptive technologies and enhanced 9-1-1 
            services.
  <bullet> Older adults and others may need assistance navigating 
        computer technology to access preparedness information, 
        recovery benefits, etc.
    <bullet> Local emergency managers should work with Federal, State, 
            and local partners and volunteer groups to ensure that 
            individuals are able to use the technology required, or to 
            have alternate systems in place.
  <bullet> Education departments and local school boards must be 
        included in the planning processes to facilitate use of schools 
        as shelters, ensure minimal disruption of education for 
        children displaced by the incident, provide counseling as 
        necessary for impacted students, and ensure school safety.
  <bullet> Assistance centers where disaster and social services are 
        offered, must be accessible by those with transportation needs 
        and offer flexible hours.
    <bullet> Local emergency managers and social service departments 
            should ensure that transportation is being provided to and 
            from the assistance centers and that the centers have 
            flexible operating hours to accommodate the needs of the 
            local residents.
  <bullet> Disaster relief funding should consider additional needs for 
        vulnerable populations.
    <bullet> Additional funding may be needed to ensure that those who 
            have physical disabilities receiving funds to elevate their 
            homes also receive funds to install stair chairs, 
            elevators, or proper ramping, etc., so that they have 
            access into the home.
    <bullet> Rental assistance funding should be supplemented with 
            further funding for food, clothing, etc.
  <bullet> Vulnerable populations are disproportionately burdened by 
        delays in the funding process because they do not have the 
        financial means to sustain their needs.
    <bullet> Funding for training and more staff to speed up the 
            application review process would be beneficial.
    Although New Jersey has come a long way since Sandy, we know that 
we have many tasks ahead of us. We are confident, however, that our 
emergency managers and our residents are committed to a stronger, more 
resilient New Jersey with equal access to services for everyone. We 
thank you for this opportunity to testify to this subcommittee.

    Mr. Payne. Thank you, sir.
    Next we have Ms. Boyd.

 STATEMENT OF KELLY BOYD, ACCESS AND FUNCTIONAL NEEDS PLANNER, 
 PREPAREDNESS BUREAU/EMERGENCY MANAGEMENT SECTION, NEW JERSEY 
                 OFFICE OF EMERGENCY MANAGEMENT

    Ms. Boyd. Good morning, Chairman Payne and committee 
Members. My name is Kelly Boyd.
    For several years, I have had the privilege of serving as 
the access and functional needs planner for NJOEM. As a person 
with a disability and as an emergency manager, I am honored to 
testify today about the exciting work we are doing to enhance 
preparedness for the disabilities and access and functional 
needs, DAFN, community in New Jersey.
    I work with Government agencies, advocacy groups, faith- 
and community-based organizations, and NGO's. Through strong 
alliances with many organizations, including the Centers for 
Independent Living and the State-wide Parent Advocacy Network, 
we strive to ensure the personal preparedness of the DAFN 
community and provide emergency managers with a pool of DAFN 
subject-matter experts and resources.
    My testimony will cover the State's Register Ready program 
and give an overview of our inclusive planning initiatives. 
This includes State and county core advisory groups, the county 
AFN coordinators group, and special DAFN-related working 
groups. As noted, one planning tool NJOEM administers and 
encourages emergency managers to use is Register Ready. It is a 
secure database where residents and facilities can voluntarily 
enter DAFN-specific information so emergency managers can 
better plan for their needs.
    Its GIS mapping capabilities also allow emergency managers 
to identify individuals within an impacted area. Emergency 
managers have used the data to make reverse 9-1-1 calls, 
conduct wellness checks, assist with evacuations, and 
anticipate DAFN supplies and staffing needs for shelters.
    Additionally, we follow FEMA's core advisory group, CAG, 
concept for inclusive collaboration between disability 
stakeholders and emergency managers. We have State and county 
CAGs. The State CAG, known as the New Jersey Group for Access 
and Integration Needs in Emergencies and Disasters, NJ GAINED, 
was established in 2006.
    Members from relevant State agencies and disability 
advocacy groups share best practices, offer training, engage in 
planning, and provide resources and subject-matter expertise. 
In fact, during Sandy, members provided critical information 
and resources to the DAFN community, including durable medical 
equipment and supplies.
    We help counties establish CAGs led by disability advocacy 
groups, which is now required for county EMAA funding. One 
third of our counties already have CAGs that have carried out 
significant projects with wide-ranging impact.
    For example, CAGs have developed and conducted a 
radiological reception center exercise and DAFN overnight 
emergency shelter simulations for emergency managers and 
individuals who have DAFN. We avoid role playing by engaging 
members of the DAFN community.
    Another unique CAG initiative is the DAFN Active-Shooter 
Preparedness Working Group, which recently produced a video 
with tips for law enforcement and the DAFN community. Members 
also participated in a school safety summit on active-shooter 
response planning for students with disabilities and are 
currently working on a tabletop exercise for dialysis centers.
    Several CAGs also work with the Community Emergency 
Response Team, CERT program, to host CERT classes that have 
recruited individuals with DAFN. CAGs also developed a 
comprehensive preparedness guide for vulnerable individuals and 
provide preparedness information to thousands of vulnerable 
residents and service providers at public events.
    I also oversee the county AFN coordinators group, comprised 
of an AFN coordinator from each county Office of Emergency 
Management. The group has addressed matters such as Register 
Ready capabilities, proposed legislation, MOUs for medical 
equipment and supplies, and DAFN-related training. We also 
partner with FEMA on special projects such as the region's 
disability resource database and the New Jersey mapping project 
for vulnerable populations.
    The CAGs and county AFN coordinators group identify gaps in 
training and then develop and deliver training to members of 
the emergency management and DAFN communities. Examples include 
a new CERT module focused on responding to DAFN community 
needs, personal care assistance training for shelter workers, 
autism awareness training for responders and preparedness tips 
for family members, and emergency preparedness training for 
those who are visually impaired.
    Additionally, we ensure exercises at all levels include 
DAFN consideration and involvement. Recent exercises and drills 
included air and rail incidents, hurricanes, and nuclear and 
radiological incidents. Finally, we established working groups 
to address specific gaps. One example is the State Sheltering 
Task Force, a multi-agency planning team that examined 
capabilities and gaps in sheltering, including issues 
experienced by vulnerable populations. The task force develops 
training to address those issues, as well as guidance.
    Thank you for permitting me to testify here today.
    Mr. Payne. Thank you, Ms. Boyd.
    Next we will hear from--I now recognize Ms. Curda to 
summarize her statement for 5 minutes.

     STATEMENT OF ELIZABETH H. CURDA, DIRECTOR, EDUCATION, 
   WORKFORCE, AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Curda. Chairman Payne and Representative Pascrell, 
thank you for inviting me to New Jersey to discuss disaster 
assistance for people with disabilities. I am sure many people 
in this room experienced the devastation of Hurricane Sandy in 
2012 and its impact on people with disabilities.
    As you are keenly aware, in 2017, 3 hurricanes--Harvey, 
Irma, and Maria--hit Texas, Florida, Puerto Rico, and the U.S. 
Virgin Islands in rapid succession, causing widespread damage. 
As a result, obtaining food, water, medicine, and 
transportation was challenging for those affected by the 
hurricanes and particularly for those with disabilities.
    Today, I will discuss aspects of our May 2019 report on the 
challenges people with disabilities faced in accessing disaster 
assistance following the 2017 hurricanes. I will also discuss 
how effectively FEMA has implemented changes in how it supports 
people with disabilities.
    Regarding the challenges, substantial damage from the 
hurricanes made it more difficult for some people with 
disabilities to access life-sustaining provisions, such as 
oxygen. This was particularly true in Puerto Rico and the U.S. 
Virgins Islands, where supplies in central locations could not 
be delivered to remote areas of the islands. In addition, 
shelters did not always have appropriate food or accessible 
restrooms for people with disabilities.
    Aspects of FEMA's application process for assistance also 
created challenges. For example, in addition to long wait times 
of up to an hour-and-a-half on FEMA's helpline, FEMA's 
registration process did not give people a clear opportunity to 
state that they have a disability or to request an 
accommodation. FEMA needs this information so it can offer 
appropriate accommodations or other assistance to survivors. As 
a result, it may have been more difficult or even impossible 
for some people with disabilities to get the help that they 
needed.
    In addition, even for those who disclosed their disability-
related needs, FEMA did not have a systematic way to highlight 
and share that information with staff tasked with providing 
assistance across its various programs. In our May report, we 
recommended that FEMA develop new registration questions to 
better identify survivors' disability-related needs.
    FEMA agreed and has already agreed to change--has already 
changed the registration questions. Since the change, FEMA told 
us that more people have been reporting their disability-
related needs following recent disasters.
    We also recommended that FEMA develop a way to 
systematically alert FEMA staff working with survivors who have 
reported a disability-related need. FEMA disagreed with this 
recommendation because it said it lacked the funding to change 
its information systems in the near term and will not be able 
to do so until it completes a long-term system modernization in 
2024.
    However, we believe that in the interim, FEMA could 
identify workarounds, such as encouraging staff working 
directly with survivors to review case file notes. Following 
the 2017 hurricanes, FEMA launched a new approach to how it 
responds to and assists people with disabilities, but FEMA's 
implementation of this new approach had limitations.
    For example, FEMA significantly reduced the number of 
disability integration staff deployed to disasters and changed 
their role from directly assisting people with disabilities to 
advising joint field office managers on how to do this. Instead 
of deploying staff specialists to provide assistance, all 
generalist staff deployed to help respond to and recover from a 
disaster were to receive training on disability issues and 
provide hands-on assistance where needed.
    However, FEMA has not yet provided comprehensive training 
to all deployable staff on how to help people with 
disabilities. We recommended that FEMA develop a plan for 
delivering training to FEMA staff that promotes competency and 
disability awareness. FEMA agreed but is pursuing a somewhat 
different approach. We will monitor FEMA's efforts to ensure 
that it has clear plans in place for developing this training.
    Finally, in 2017, FEMA stopped offering comprehensive 
training to non-Federal partners on how to incorporate the 
needs of people with disabilities in emergency planning. FEMA 
stated it planned to improve the course but had no time line 
for doing so. We recommended FEMA develop time lines for 
developing the new course, and FEMA agreed. FEMA has stated 
that the new course will be ready for the 2020 hurricane 
season.
    In conclusion, FEMA has taken a number of steps to improve 
how FEMA supports individuals with disabilities following a 
disaster. However, we continue to believe that changing its 
approach to disability integration before staff have been fully 
trained may leave FEMA staff ill-prepared to identify and 
address the challenges that individuals with disabilities face 
while recovering from a disaster.
    We will continue to monitor FEMA's actions, as it makes 
additional progress toward addressing our recommendations.
    This concludes my prepared statement, and I would be happy 
to answer the committee's questions.
    [The prepared statement of Ms. Curda follows:]
                Prepared Statement of Elizabeth H. Curda
                             july 23, 2019
                             gao highlights
    Highlights of GAO-19-652T, a testimony before the Subcommittee on 
Emergency Preparedness, Response, and Recovery, Committee on Homeland 
Security, House of Representatives.
Why GAO Did This Study
    Three sequential hurricanes--Harvey, Irma, and Maria--affected more 
than 28 million people in 2017, according to FEMA. Hurricane survivors 
aged 65 and older and those with disabilities faced particular 
challenges evacuating to safe shelter, accessing medicine, and 
obtaining recovery assistance. In June 2018, FEMA began implementing a 
new approach to assist individuals with disabilities.
    This statement describes: (1) Reported challenges faced by these 
individuals in accessing disaster assistance from FEMA and its non-
Federal partners following the 2017 hurricanes; and (2) the extent to 
which FEMA has implemented changes in how it supports these 
individuals. This statement is based on a May 2019 GAO report and 
selected updates. For the report, GAO analyzed FEMA documents and data 
from FEMA call centers and also visited 2017 hurricane locations to 
interview State, territorial, and local officials. GAO also interviewed 
FEMA officials from headquarters and deployed to each disaster 
location. To update FEMA's progress toward addressing its 
recommendations, GAO interviewed FEMA officials and analyzed agency 
documents.
What GAO Recommends
    In the May 2019 report, GAO made 7 recommendations to FEMA; FEMA 
concurred with 6. FEMA has established new registration questions and a 
time line to offer training to its partners. GAO continues to believe 
its recommendations to develop a plan to train its staff on disability 
awareness, among other actions, are valid.
  disaster assistance.--fema has taken steps toward better supporting 
             individuals who are older or have disabilities
What GAO Found
    GAO's May 2019 report found that some individuals who are older or 
have disabilities may have faced challenges registering for and 
receiving assistance from the Federal Emergency Management Agency 
(FEMA) and its non-Federal partners (such as State, territorial, and 
local emergency managers).
  <bullet> FEMA's registration did not include an initial question that 
        directly asks individuals if they have a disability or if they 
        would like to request an accommodation. GAO recommended that 
        FEMA use new registration-intake questions to improve the 
        agency's ability to identify and address individuals' 
        disability-related needs. FEMA concurred and, in May 2019, 
        updated the questions to directly ask individuals if they have 
        a disability.
  <bullet> GAO found that the substantial damage caused by the 2017 
        hurricanes prevented or slowed some individuals with 
        disabilities from obtaining food, water, and other critical 
        goods and services from States, territories, and localities. 
        Officials from one State reported that few public 
        transportation services, including paratransit, were functional 
        following the 2017 hurricane affecting the State. The officials 
        said this may have prevented people with disabilities from 
        maintaining their health and wellness--such as by shopping for 
        groceries or going to medical appointments--after the storm.
    GAO's May 2019 report also found that FEMA had taken limited steps 
to implement the agency's new approach to assist individuals with 
disabilities.
  <bullet> GAO recommended the agency establish and disseminate 
        objectives for implementing its new approach. FEMA concurred, 
        and developed a draft strategic plan that includes strategic 
        goals and objectives for the new approach, which the agency 
        plans to finalize and disseminate in 2019.
  <bullet> GAO recommended that FEMA, as part of its new approach, 
        develop a plan for delivering training to all FEMA staff 
        deployed during disasters that promotes competency in 
        disability awareness. In concurring with this recommendation, 
        FEMA described its plan to incorporate a disability awareness 
        competency into the job requirements for all deployable staff, 
        but has not yet developed a plan for training.
  <bullet> GAO's May 2019 report also recommended that FEMA develop a 
        time line for completing the development of training on 
        incorporating the needs of individuals with disabilities into 
        emergency planning, which it planned to offer to its non-
        Federal partners. FEMA concurred with GAO's recommendation and, 
        in June 2019, officials began procuring external consulting 
        services to develop a replacement course. According to 
        officials, the course will take about 1 year to develop and 
        will be ready to field by August 2020.
    Chairman Payne, Ranking Member King, and Members of the 
subcommittee: Thank you for the opportunity to discuss our recent work 
on disaster assistance for individuals who are older or have 
disabilities.\1\ For instance, individuals with disabilities that 
affect their ability to evacuate, shelter, or recover from hurricanes 
and other large-scale disasters can face particular challenges 
obtaining disaster assistance. Some of these individuals, who otherwise 
function independently in their day-to-day lives, may rely on supports 
that disasters can interrupt. For example, after Hurricane Maria made 
landfall on Puerto Rico as a category 4 hurricane, the two suppliers of 
oxygen on the island of Puerto Rico lost production capabilities due to 
a lack of power.\2\ According to a disability rights organization's 
report, this lack of production capabilities threatened the health of 
approximately 50,000 Puerto Ricans who depended on oxygen.\3\
---------------------------------------------------------------------------
    \1\ GAO, Disaster Assistance: FEMA Action Needed to Better Support 
Individuals Who Are Older or Have Disabilities, GAO-19-318 (Washington, 
DC: May 14, 2019). Under Federal civil rights laws, an individual with 
a disability is generally defined as an individual who has a physical 
or mental impairment that substantially limits one or more major life 
activities. The Federal Emergency Management Agency (FEMA) provides 
specialized services to those with ``access and functional needs,'' 
which includes, among others, individuals with disabilities, older 
adults, and individuals with limited English proficiency, limited 
access to transportation, and/or limited access to financial resources 
to prepare for, respond to, and recover from a disaster. For the 
purposes of this statement, ``individuals with disabilities'' refers to 
individual disaster survivors, including those who are 65 or older, who 
have a disability that affects their ability to evacuate, shelter, or 
recover from a disaster. In addition, ``individuals who are older'' 
refers to individuals who are age 65 or older, regardless of whether 
they have a disability. For presentation purposes, we use ``individuals 
with disabilities'' to refer to both.
    \2\ As we reported in September 2018, Hurricane Maria caused wide-
spread infrastructural damages that left 3.7 million of the island's 
residents without electricity and 95 percent of cell towers out of 
service. GAO, 2017 Hurricanes and Wildfires: Initial Observations on 
the Federal Response and Key Recovery Challenges, GAO-18-472 
(Washington, DC: Sept. 4, 2018).
    \3\ The Partnership for Inclusive Disaster Strategies, Getting It 
Wrong: An Indictment with a Blueprint for Getting It Right. Disability 
Rights, Obligations and Responsibilities Before, During and After 
Disasters (May 2018).
---------------------------------------------------------------------------
    The sequential Hurricanes Harvey, Irma, and Maria caused wide-
spread damage to critical infrastructure, livelihoods, and property in 
2017. As a result, obtaining food, water, medicine, and transportation 
was challenging for those affected by the hurricanes, and was 
particularly challenging for some individuals with disabilities. State, 
territorial, and local emergency management and private organization 
partners turned to the Federal Emergency Management Agency (FEMA) for 
help, including from FEMA disability integration staff who were 
responsible for providing assistance to individuals with 
disabilities.\4\ In June 2018, near the start of the 2018 hurricane 
season, FEMA announced plans to reorganize its workforce to more 
thoroughly incorporate disability integration principles into all 
preparedness, response, and recovery activities Nation-wide and reduce 
reliance on disability integration staff in FEMA's Office of Disability 
Integration and Coordination (ODIC).
---------------------------------------------------------------------------
    \4\ Disability integration staff are responsible for focusing on 
inclusive practices in emergency management, and include those deployed 
to areas affected by disasters and those working permanently in FEMA's 
regional offices. Inclusive practices are intended to ensure people 
with disabilities have equal opportunities to participate in, and 
receive the benefits of, emergency management programs and services.
---------------------------------------------------------------------------
    My statement today discusses information from our May 2019 report 
on disaster assistance for individuals who are older or have 
disabilities. Specifically, this statement addresses: (1) Reported 
challenges these individuals faced in accessing disaster assistance 
from FEMA and its non-Federal partners following the 2017 hurricanes; 
and (2) the extent to which FEMA has implemented changes in how it 
supports these individuals.
    This statement is primarily based on the May 2019 report as well as 
selected updates. For that report we analyzed FEMA policies, 
procedures, guidance, and memoranda and assessed these documents 
against goals and objectives in FEMA's 2018-2022 Strategic Plan, 
Department of Homeland Security (DHS) policy for ensuring 
nondiscrimination for individuals with disabilities, and Federal 
standards for internal control.\5\ We obtained and analyzed data from 
FEMA call centers that operate FEMA's helpline. We also visited 
Florida, Puerto Rico, Texas, and the U.S. Virgin Islands in June and 
July 2018 to interview State or territorial emergency managers, public 
health and human services officials, and representatives of nonprofit 
disability organizations, among others.\6\ We also interviewed FEMA 
officials from headquarters and staff deployed to each disaster 
location, including staff focused on assisting individuals with 
disabilities. More detailed information on the scope and methodology 
for that work can be found in Appendix I of the issued report. To 
update progress FEMA has made toward addressing our recommendations 
from the May 2019 report, we interviewed FEMA officials and analyzed 
documents they provided.
---------------------------------------------------------------------------
    \5\ See FEMA, 2018-2022 Strategic Plan, March 15, 2018; DHS 
Directive 065-01, Nondiscrimination for Individuals with Disabilities 
in DHS-Conducted Programs and Activities (Non-Employment), Sept. 25, 
2013; and GAO, Standards for Internal Control in the Federal 
Government, GAO-14-704G (Washington, DC: September 2014). We did not 
independently assess whether any programs or activities conducted by 
FEMA or its partners during the period covered by our review complied 
with applicable non-discrimination or civil rights laws.
    \6\ Hurricane Harvey primarily affected the Gulf Coast of Texas; 
Hurricane Irma primarily affected the U.S. Virgin Islands, Puerto Rico, 
and Florida; and Hurricane Maria primarily affected the U.S. Virgin 
Islands and Puerto Rico. We supplemented the information we obtained 
from the site visit interviews with summaries of 8 public listening 
sessions across the 4 disaster locations. The summaries were published 
by DHS's Office for Civil Rights and Civil Liberties and co-hosted with 
FEMA between February 2018 and May 2018.
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally-accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
  registering for and receiving assistance from fema and its partners 
 posed challenges for individuals with disabilities following the 2017 
                               disasters
Aspects of FEMA's Application Process for Assistance Created Challenges 
        for Individuals with Disabilities
    To receive FEMA assistance under FEMA's Individuals and Households 
Program, through which disaster survivors can receive help with housing 
and other needs, individuals must register by answering a standard 
series of intake questions.\7\ In our May 2019 report, we found that 
some individuals with disabilities may have faced long wait times and 
unclear registration questions, and that FEMA's internal communication 
across its programs about survivors' disability-related needs was 
ineffective.
---------------------------------------------------------------------------
    \7\ Individuals can register by phone using a toll-free helpline, 
via the internet, or in person at FEMA-staffed Disaster Recovery 
Centers.
---------------------------------------------------------------------------
  <bullet> Long wait times.--Individuals who tried to apply for 
        assistance using the helpline confronted long wait times, which 
        may have posed greater challenges for those with disabilities. 
        In the days after Hurricane Maria affected Puerto Rico and the 
        U.S. Virgin Islands--when survivors from Harvey and Irma were 
        concurrently contacting the helpline--up to 69 percent of calls 
        went unanswered and the daily average wait time for answered 
        calls peaked at almost an hour and a half, according to our 
        analysis of FEMA data. While long wait times could be 
        burdensome for all individuals, State officials and disability 
        advocates we interviewed said long wait times were especially 
        burdensome for people with certain disabilities, such as those 
        with attention disorders or whose assistive technology prevents 
        multi-tasking when waiting on hold.
  <bullet> Unclear registration questions.--FEMA's registration process 
        did not give individuals a clear opportunity to State they have 
        a disability or request an accommodation because the 
        registration did not directly ask registrants to provide this 
        information.\8\ According to FEMA officials at the time, 
        information about disability-related needs can help FEMA staff 
        match individuals with disabilities with appropriate resources 
        in a timely and efficient manner and target additional 
        assistance, such as help with the application process. However, 
        individuals with disabilities may not have requested 
        accomodations or reported their disability and related needs 
        during FEMA's registration-intake due to the unclear questions. 
        As a result, the registration process may have under-identified 
        people with disabilities. For example, in Puerto Rico, an 
        estimated 21.6 percent of people have disabilities, according 
        to 2017 census data. However, less than 3 percent of all 
        registrants in the territory answered ``yes'' to the 
        disability-related question in response to Hurricanes Irma and 
        Maria.\9\
---------------------------------------------------------------------------
    \8\ According to a FEMA policy document, FEMA makes reasonable 
accommodations to policies, practices, and procedures to ensure 
physical, programmatic, and effective communication access to FEMA 
disaster assistance. We did not assess whether any accommodations or 
other services provided by FEMA or its partners complied with any 
applicable non-discrimination or civil rights laws.
    \9\ The data are from the 2017 Puerto Rico Community Survey, a 
survey administered annually by the United States Census Bureau. The 
Puerto Rico Community Survey produces 1-year estimates for the total 
civilian noninstitutionalized population and is the equivalent of the 
American Community Survey for the 50 States and District of Columbia. 
Data results from both surveys are released together as a unified 
American Community Survey dataset. The estimate for Puerto Rico has a 
margin of error at the 90 percent confidence interval of plus or minus 
0.5 percentage points.
---------------------------------------------------------------------------
  <bullet> Ineffective communication across FEMA programs.--Individuals 
        may have faced challenges receiving necessary assistance 
        because FEMA did not effectively track and communicate 
        information about individuals' disability-related needs across 
        its assistance programs after such needs were identified. FEMA 
        officials we interviewed for the May 2019 report explained that 
        accommodation requests and disability-related information 
        identified after registration-intake are recorded in a general 
        ``notes'' section of a registrant's case file, which can be 
        easily overlooked as a case file is passed along to subsequent 
        FEMA officials.
    In our May 2019 report we recommended that FEMA implement new 
registration-intake questions to improve FEMA's ability to identify and 
address survivors' disability-related needs. FEMA concurred with this 
recommendation, and officials reported that in May 2019 the agency 
updated the questions to directly ask individuals if they have a 
disability. According to FEMA's analysis of applications for assistance 
following recent disasters, which used the updated questions, the 
percentage of registrants who reported having a disability increased. 
FEMA officials stated this increase gives them confidence the change 
has improved FEMA's ability to identify and address disability-related 
needs of individuals affected by disasters.
    We also recommended that FEMA improve its communication of 
registrants' disability-related information across FEMA programs, such 
as by developing an alert within survivor files that indicates an 
accommodation request. FEMA did not concur with this recommendation, 
explaining that the agency lacks specific funding to augment the legacy 
data systems that capture and communicate registration information. In 
its comments on our May 2019 report, FEMA stated that it began a long-
term initiative in April 2017 to improve data management and exchange, 
and improve overall data quality and standardization.\10\ After FEMA 
completes this initiative, which officials said will be in 2024, FEMA 
expects that efforts to share and flag specific disability-related data 
will be much easier. We believe that in the interim, FEMA could explore 
other cost-effective ways to improve communication, such as through 
agency guidance that encourages program officials to review 
registrants' case file notes. As FEMA moves ahead with its initiatives 
to improve data, we encourage it to consider and ultimately implement 
technology changes, such as developing an alert within files that 
indicates an accommodation request, to help improve communication 
across FEMA programs.
---------------------------------------------------------------------------
    \10\ The letter said that FEMA expects the initiative to include 
the development of a modern, cloud-based data storage system with a 
data analytics platform that will allow analysts, decision makers, and 
stakeholders more ready access to FEMA data.
---------------------------------------------------------------------------
Officials Reported that Individuals with Disabilities Faced Challenges 
        Obtaining Critical Goods and Services
    State, territorial, and local governments are primarily responsible 
for response and recovery activities in their jurisdictions, including 
those involving health and safety. In our May 2019 report, we found 
that the substantial damage caused by the 2017 hurricanes prevented or 
slowed some individuals with disabilities from obtaining food and 
water. According to territorial and nonprofit officials in Puerto Rico 
and the U.S. Virgin Islands, as well as survivors we interviewed in the 
U.S. Virgin Islands, this was due to centralized distribution models, 
in which the majority of food and water was distributed to centralized 
locations around the islands. Officials from one governmental agency in 
Puerto Rico said this posed a major barrier to people with mobility 
challenges or without caregivers receiving food and water because they 
had to rely on home delivery, which took time and in some cases, did 
not happen. We also found that Hurricane Maria survivors faced 
challenges obtaining needed medication and oxygen in Puerto Rico and 
the U.S. Virgin Islands, according to territorial and nonprofit 
officials.
    State, territorial, and local agencies are also primarily 
responsible for administering shelters, when necessary, for those 
affected by a disaster. We found in our May 2019 report that 
individuals with disabilities affected by the 2017 hurricanes may have 
faced challenges accessing basic services from local shelters, 
including restrooms and food, according to State, territorial, local, 
and nonprofit officials in Florida, Puerto Rico, Texas, and the U.S. 
Virgin Islands. For example, nonprofit officials in Florida and Puerto 
Rico described instances of shelter residents with impairments that 
prevented them from accessing shelter restrooms.
    We also found that transportation was especially challenging for 
those who relied on public transportation or were unable to walk long 
distances, such as people with disabilities, according to State, 
territorial, local, and nonprofit officials we interviewed. For 
example, Florida State officials reported that few public 
transportation services, including paratransit, were functional 
following Hurricane Irma. This may have prevented some people with 
disabilities from maintaining their health and wellness--such as by 
shopping for groceries or going to medical appointments--after the 
storm, according to State officials.
    Officials we interviewed from Texas, Florida, and Puerto Rico for 
our May 2019 report said they had difficulty obtaining FEMA data that 
could help them deliver assistance to individuals, including those with 
disabilities. The officials explained that data--including names and 
addresses--showing who has registered for and received assistance from 
FEMA can help local governments and nonprofits identify who in their 
community needs assistance.\11\ To better facilitate authorized non-
Federal partners obtaining these needed data, we recommended that FEMA 
develop and publicize guidance for partners who assist individuals with 
disabilities on how to request and work with FEMA staff to obtain the 
data, as appropriate. FEMA concurred with this recommendation and 
officials told us in July 2019 that the agency plans to publish data-
sharing guidelines on its website, among other actions.
---------------------------------------------------------------------------
    \11\ According to FEMA officials, the agency has broad authority to 
share its data on registrations, and follows the framework established 
under the Privacy Act of 1974 on the collection, use, maintenance, and 
dissemination of personally identifiable information. FEMA has 
published a number of routine uses under which FEMA may disclose such 
information to State, Tribal, and local government agencies and 
emergency managers, including the type of information it can share and 
under what circumstances. See 78 Fed. Reg. 25,282 (Apr. 30, 2013). 
Generally, FEMA uses agreements with State and other partners to 
establish the terms and conditions of how it will share data; however, 
according to State and nonprofit officials, obtaining FEMA data has 
sometimes been challenging and time-consuming.
---------------------------------------------------------------------------
     fema had taken limited steps to effectively implement its new 
                    disability integration approach
FEMA Began Implementing Changes Without Communicating Objectives to 
        Regional Staff
    Before initiating its new approach to disability integration, ODIC 
distributed an explanatory memorandum and other documentation to FEMA 
staff. For example, an April 2018 memorandum to FEMA Regional 
Administrators outlined a proposal to add new disability integration 
staff in each FEMA region to foster day-to-day relationships with 
State, territorial, and local emergency managers and disability 
partners. Also, ODIC distributed a document that described FEMA's new 
approach to deployments. Under the new approach, fewer disability 
integration staff are to be deployed to disasters and all deployable 
staff and staff in programmatic offices are to receive training on 
disability issues during response and recovery deployments.
    However, in our May 2019 report, we found that these documents did 
not articulate objectives that could help the agency define success for 
the new approach. We concluded that without a set of common objectives 
for FEMA's new disability integration approach, FEMA risks inconsistent 
application across its regions. In our report, we recommended that FEMA 
establish and disseminate a set of objectives for the new approach. 
FEMA concurred with this recommendation, and in July 2019 officials 
provided us with the draft of ODIC's strategic plan for 2019-2022, 
which includes strategic goals and objectives that the new disability 
integration approach can help achieve. ODIC officials told us they will 
be working throughout 2019 with FEMA's Office of External Affairs to 
disseminate the plan agency-wide and to nonFederal partners. We will 
continue to monitor FEMA's progress toward sharing the objectives of 
its new approach to disability integration with critical stakeholders.
FEMA Had Not Documented Plans for Training All Deployed Staff on 
        Disability Competencies, but Has Taken Steps to Offer Training 
        to Non-Federal Partners
    To implement FEMA's new deployment model, which will shift the 
responsibility of directly assisting individuals with disabilities from 
disability integration staff to all FEMA staff, FEMA planned to train 
all deployable staff and staff in programmatic offices on disability 
issues. We reported in May 2019 that FEMA officials emphasized the need 
to integrate disability competencies throughout FEMA's programmatic 
offices and deployable staff. However, we found that the agency did not 
have written plans--including milestones, performance measures, or a 
plan for monitoring performance--for developing new comprehensive 
training for all staff. Starting in the 2018 hurricane season, FEMA had 
taken initial steps toward training some deployed staff on disability 
issues. For example, FEMA required all staff to complete a 30-minute 
training on basic disability integration principles and offered 
targeted ``just-in-time'' training to deployed staff. We concluded that 
developing a training plan would better position FEMA to provide 
training to all staff to help achieve FEMA's intended goals.
    In our May 2019 report, we recommended that FEMA develop a plan for 
delivering training to FEMA staff that promotes competency in 
disability awareness. In its letter commenting on our May 2019 report, 
FEMA stated that ODIC is developing a plan to introduce the disability 
competency in FEMA's position task books for all deployable staff.\12\ 
The letter explained further that ODIC's plan will describe how FEMA 
will communicate the disability integration competency throughout the 
agency, establish milestones for measuring how effectively the 
competency is integrated across the agency, and outline how ODIC will 
monitor and measure integration of the competency across the deployable 
workforce.
---------------------------------------------------------------------------
    \12\ Position task books outline the required activities, tasks, 
and behaviors for each job, and serve as a record for task completion.
---------------------------------------------------------------------------
    In July 2019, FEMA officials told us ODIC plans to hire new staff 
to focus on integrating the disability competency FEMA-wide. According 
to the officials, after the position task books are updated, ODIC will 
work with FEMA's training components to ensure that disability-related 
training is consistent with the content of the position task books. 
FEMA officials also noted that the Field Operations Division, and not 
ODIC, is responsible for measuring how effectively the disability 
competency is integrated across FEMA. We will continue to monitor 
FEMA's progress toward developing a plan for delivering training to 
promote competency in disability awareness among its staff. As noted in 
our May 2019 report, the plan for delivering such training should 
include milestones, performance measures, and how performance will be 
monitored.
    In our May 2019 report, we found that deploying a smaller number of 
disability integration staff and shifting them away from providing 
direct assistance to individuals with disabilities may result in non-
Federal partners (such as State, territorial, and local emergency 
managers) providing more direct assistance to individuals with 
disabilities than they did previously. In February 2017, we reported 
that the comprehensive introductory training course on disability 
integration that FEMA offered to its non-Federal partners included 
substantial information on how to incorporate the needs of people with 
disabilities in emergency planning.\13\ However, according to 
officials, FEMA stopped offering this 2-day course in September 2017. 
ODIC officials told us during our 2019 review they had determined that 
the course, as designed, did not provide actionable training to 
emergency management partners to meet the needs of individuals with 
disabilities and planned to replace it.
---------------------------------------------------------------------------
    \13\ Federal Disaster Assistance: FEMA's Progress in Aiding 
Individuals with Disabilities Could Be Further Enhanced. GAO-17-200, 
(Washington, DC: Feb. 7, 2017).
---------------------------------------------------------------------------
    However, we found in May 2019 that although officials had plans to 
replace the course with new training, they had not provided a time 
line, which would help ensure that partners are provided with timely 
information on inclusive emergency management practices. We recommended 
that FEMA develop a time line for completing the replacement course 
and, in June 2019, FEMA officials said they had begun procuring 
external consulting services to redevelop it. According to the 
officials, ODIC had evaluated alternatives to the suspended course and 
determined that an in-person, exercise-based course with remote 
participation capabilities would be an appropriate replacement. FEMA 
officials said the course will take about 1 year to develop and will be 
ready to field by August 2020.
    In conclusion, FEMA has taken a number of steps toward addressing 
our recommendations related to how it supports individuals with 
disabilities in obtaining disaster assistance. ODIC's draft strategic 
plan for 2019-2022, which articulates objectives for the new approach 
to disability integration, is likely to help facilitate consistent 
implementation agency-wide. In addition, we are hopeful that FEMA's 
revised registration-intake questions, as well as data-sharing guidance 
for non-Federal partners, will help FEMA and its partners better 
identify and assist registrants with disabilities. However, we continue 
to believe that implementing changes to disability integration before 
staff have been fully trained may leave FEMA staff ill-prepared to 
identify and address the challenges that individuals with disabilities 
face while recovering from disasters. We will continue to monitor 
FEMA's actions as it makes additional progress toward addressing our 
recommendations.
    Chairman Payne, Ranking Member King, and Members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Mr. Payne. Thank you, Ms. Curda.
    Now I recognize Ms. Roth to summarize her statement for 5 
minutes.

STATEMENT OF MARCIE ROTH, CHIEF EXECUTIVE OFFICER, PARTNERSHIP 
               FOR INCLUSIVE DISASTER STRATEGIES

    Ms. Roth. Good morning, Chairman Payne, Congressman 
Pascrell, my fellow panelists. I am honored to appear before 
you today.
    My name is Marcie Roth, and I am the CEO of the Partnership 
for Inclusive Disaster Strategies, a national and global 
coalition of disability rights, emergency management, public 
health, and community leaders committed to equal access and 
whole community inclusion before, during, and after disasters.
    I was appointed by President Obama and served as senior 
adviser to FEMA Administrator Fugate for almost 8 years. My 
role included serving as the Congressionally-mandated 
disability coordinator responsible for ensuring FEMA meets all 
of its disability-related obligations established in the Post-
Katrina Emergency Management Reform Act of 2006. I was also 
charged with establishing and directing FEMA's Office of 
Disability Integration and Coordination from 2010 until my 
departure in 2017.
    I am here today to report that despite an investment of 
over $34 billion in emergency preparedness funding in the past 
15 years, our communities remain unprepared for disasters, and 
the people most disproportionately impacted are people with 
disabilities, older adults, and others with access and 
functional needs. Many of these members of every community in 
the country have legal protection in disasters, but these 
protections are not monitored and enforced, placing these 
individuals and their communities in harm's way every time 
there is a disaster.
    It is important to note that there have been over 120 major 
disasters in the past 3 years. The disproportionate impact of 
disasters on people with disabilities, older adults, and others 
who also have access and functional needs is not insignificant.
    In fact, people with disabilities and older adults are 2 to 
4 times more likely to die or be injured in a disaster. This is 
due to a lack of planning, accessibility, and accommodation.
    According the Centers for Disaster Control, 1 in 4 adults, 
26 percent of the population, has one or more disabilities. 
Fifteen percent of the population is over age 65 and growing.
    Interruption of medical care and disability services were 
the primary cause of almost 3,000 deaths following Hurricane 
Maria, 71 percent of deaths in Hurricane Katrina were people 
over the age of 60, 50 percent of the deaths in Superstorm 
Sandy, and 77 percent of people who died in the California 
wildfires this past year were over the age of 65, and many had 
disabilities.
    Equal access to disaster services has been promised to 
children and adults with disabilities since passage of the 
Rehabilitation Act of 1973 46 years ago. There are no waivers 
to civil rights protections during a disaster.
    In addition to the obligations that come with the 
expenditure of every Federal dollar before, during, and after 
disasters, the Americans with Disabilities Act of 1990 
prohibits recipients from discriminating on the basis of 
disability in the operation of public entities, transportation 
systems, public accommodations, and the 1999 Olmstead Supreme 
Court decision assured that people with disabilities would be 
served in the most integrated setting appropriate to their 
needs, including in disasters.
    Despite this, there has been no action taken to address the 
partnership's formal and informal requests to the Federal 
agencies responsible for enforcement to prevent civil rights 
violations in disasters, and as recently as last week, a waiver 
of civil rights was issued by the Department of Health and 
Human Services to Louisiana, allowing nursing home placement of 
disaster-impacted people.
    Key to compliance is FEMA's Congressionally-mandated 
disability coordinator, implementing responsibilities as 
defined in the Post-Katrina Emergency Management Reform Act. 
These responsibilities include ensuring that the needs of 
individuals with disabilities are being properly addressed in 
emergency preparedness and disaster relief; consulting with 
organizations that represent the interests and rights of 
individuals with disabilities; ensuring the development of 
training materials and a curriculum for training emergency 
response providers, State, local, and Tribal government 
officials, and others; and ensuring the availability of 
accessible transportation options in evacuation.
    The partnership and our member organization have 
continually attempted to consult with the FEMA disability 
coordinator without success. We are the Nation's organizations 
that represent the interests and rights of individuals with 
disabilities before, during, and after disasters. The 
disability coordinator has also prevented the FEMA Individual 
Assistance Directorate from collaborating with us, and it 
wasn't until Senator Casey reached out to FEMA that we were 
granted an invitation to meet with FEMA senior leadership. This 
meeting, requested by one of our community leaders, has not yet 
been scheduled.
    It must be noted that the DHS Office for Civil Rights and 
Civil Liberties meets with us regularly, but even they have 
been unable to get FEMA's disability coordinator to the table 
with us.
    Since 2018, disaster-impacted communities report a lack of 
FEMA-qualified disability integration representatives. Most of 
the trained and qualified disability experts have left the 
agency. Over a year ago, we were told by the disability 
coordinator that FEMA would be hiring disability integration 
specialists and training the entire agency to ensure qualified 
disability integration experts would be ensuring the rights of 
disaster-impacted people with disabilities and their 
protection.
    However, it appears that only 1 has been hired. Existing 
training has been discontinued, and at least 1 key position 
remains unfilled after an 18-month----
    Mr. Payne. Please wrap it up. Please wrap, please.
    Ms. Roth [continuing]. Vacancy. After the GAO report that 
was recently discussed, two bipartisan bills were introduced, 
led by Senators Casey and Collins, Congressmen and -women 
Langevin, Smith, Shalala, and Gonzalez-Colon, to address the 
urgent needs to protect every citizen, meeting the Federal 
Government's obligations.
    The Real Emergency Access for Aging and Disability 
Inclusion for Disasters Act and the Disaster Relief Medicaid 
Act will work together to provide solutions for the whole 
community. We call on Congress and the President to quickly 
pass and enact these bills into law before the next disaster 
strikes.
    Mr. Payne. Thank you. Thank you very much.
    Ms. Roth. Thank you very much.
    [The prepared statement of Ms. Roth follows:]
                   Prepared Statement of Marcie Roth
                         Tuesday, July 23, 2019
    Good morning Chairman Payne and distinguished committee Members. I 
am honored to appear before you today.
    My name is Marcie Roth and I am the CEO of the Partnership for 
Inclusive Disaster Strategies, a membership organization founded by 
Portlight Inclusive Disaster Strategies in 2016.
    I am here today to report that, despite an investment of over $34 
billion in emergency preparedness funding in the past 15 years, our 
communities remain unprepared for disasters, and the people most 
disproportionately impacted are people with disabilities, older adults 
and others with access and functional needs. I am able to report this 
with authority, because this has been my entire focus for the past 19 
years, both inside FEMA for almost 8 of those years.
    In 2009, I was appointed by President Obama as senior advisor to 
the FEMA administrator for disability issues. I was also named as the 
Congressionally-mandated disability coordinator, responsible for 
ensuring FEMA meets all of its disability-related obligations 
established in the Post-Katrina Emergency Management Act of 2006. And, 
I was also charged with establishing and directing FEMA's Office of 
Disability Integration and Coordination from 2010 until my departure in 
2017.
    My disaster policy and operations responsibilities included:
  <bullet> Advising Senior Leadership by leading agency and interagency 
        development and implementation of disability inclusive 
        emergency management policy and procedures throughout 
        preparedness, response, recovery, and mitigation, to ensure the 
        Federal Government was meeting its obligations to provide equal 
        access, nondiscrimination and reasonable accommodations and 
        modifications for disaster impacted people with disabilities 
        before, during and after disasters.
  <bullet> Leading development and delivery of training and technical 
        assistance tools provided by FEMA to first responders, 
        emergency managers, and a wide array of stakeholders in States 
        and communities across the country.
  <bullet> Building a Disability Integration Cadre, one of FEMA's 23 
        Disaster Response and Recovery Cadres.
    In developing the Cadre, I was charged by the administrator with 
hiring 285 disability experts, developing, implementing, and serving as 
a qualification system official to ensure the level of expertise of 
Cadre members in the field.
    Between 2013 and 2017, the Cadre had over 400 disaster deployments, 
and I was personally deployed to catastrophic disasters as a Qualified 
Lead for over 500 days. Deployment teams included as many as 65 
qualified specialists and trainees in larger disasters, with some 
serving as direct advisors to the Federal Coordinating Officer, and 
others working in the field alongside other FEMA employees to support 
implementation of FEMA's obligations to disaster impacted people with 
disabilities in Federally-declared disasters.
    I assumed the position of CEO for the Partnership for Inclusive 
Disaster Strategies (the Partnership) in 2017. The Partnership is a 
coalition of local, national and global disability rights, emergency 
management, public health, and community leaders committed to equal 
access and whole community inclusion before, during, and after 
disasters. We are the only membership organization in the United States 
with a sole focus on the needs and rights of disaster-impacted people 
with disabilities, older adults, and people with access and functional 
needs. Our coalition focuses on the access and functional needs of 
countless people who are disproportionately impacted in disasters due 
to inadequate planning, preparedness, and accessibility. This includes 
people who may require assistance, accommodation, or modification due 
to any situation (temporary or permanent) that limits their ability to 
take action in an emergency.
    In addition to people with disabilities, this includes people who 
are marginalized, stigmatized, or excluded, older adults, individuals 
with limited language proficiency, low literacy, temporary and chronic 
health conditions, pregnant women, and people experiencing 
homelessness, limited access to transportation, or the financial 
resources to prepare for, respond to, and recover from a disaster.
    Our U.S. members lead disability rights initiatives in every 
Congressional district and virtually every community across the 
country. Globally, we bring our expertise and leadership to disaster 
risk reduction, climate change adaptation, human rights, humanitarian 
action, strategic development, and resilient community initiatives.
    The disproportionate impact of disasters on people with 
disabilities, older adults, and others who also have access and 
functional needs is not insignificant. In fact, people with 
disabilities and older adults are 2 to 4 times more likely to die or be 
injured in a disaster. Due to a lack of planning, accessibility, and 
accommodation, most are not due to diagnostic labels or medical 
conditions.
    According to the Centers for Disease Control, 1 in 4 adults, 26 
percent of the population has 1 or more disabilities. There are at 
least 7 million children with disabilities, 14 percent of all school-
age children as well, and 15 percent of the population is over age 65, 
and will grow to 1 in 5 people in the United States over the next 10 
years.
    Interruption of medical care and disability services were the 
primary cause of almost 3,000 deaths following Hurricane Maria. Almost 
15 percent were attributed to an inability to access needed medications 
and almost 10 percent were caused by unmet needs for respiratory 
equipment requiring electricity. Most of these individuals had 
disabilities related to chronic health conditions.
    Seventy-one percent of deaths in Hurricane Katrina were people over 
the age of 60, 50 percent of the deaths in Super Storm Sandy and 77 
percent of people who died in the California wildfires were over 65 and 
many had disabilities.
    Over 2.5 million people use medical equipment and devices that 
require electricity.
    About 46 percent of the U.S. population used 1 or more prescription 
drugs in the past 30 days, according to a survey from the National 
Center for Health Statistics. Without uninterrupted access in a 
disaster, many of these people will require a higher level of health 
care at the very time when access to health care will be at its most 
limited.
    There are laws in place to ensure equal access, without exception, 
in a disaster. The Rehabilitation Act of 1973 protects the civil rights 
of persons with disabilities. It prohibits discrimination on the basis 
of disability by the Federal Government, Federal contractors, and by 
recipients of Federal financial assistance.
  <bullet> Any recipient or sub-recipient of Federal funds is required 
        to make their programs accessible to individuals with 
        disabilities. Its protections apply to ALL programs and 
        businesses that receive ANY Federal funds.
  <bullet> This applies to all elements of physical/architectural, 
        programmatic and effective communication accessibility in all 
        services and activities conducted by or funded by the Federal 
        Government.
    Under the Rehabilitation Act, ``entities selected to receive a 
grant, cooperative agreement, or other award of Federal financial 
assistance from the U.S. Department of Homeland Security (DHS) or one 
of its components, including State Administering Agencies must comply 
with civil rights obligations. Sub recipients have the same obligations 
as their primary recipient to comply with applicable civil rights 
requirements and should follow their primary recipient's procedures 
regarding compliance with civil rights obligations.''\1\ \2\
---------------------------------------------------------------------------
    \1\ Department of Homeland Security. ``Civil Rights Evaluation 
Tool, OMB Control No. 1601-0024.'' https://www.dhs.gov/sites/default/
files/publications/dhs-civil-rights-evaluation-tool.pdf.
    \2\ U.S. Department of Justice, ``ADA Best Practices Tool Kit for 
State and Local Governments,'' https://www.ada.gov/pcatoolkit/
chap7emergencymgmt.htm.
---------------------------------------------------------------------------
    Equal access to disaster services has been promised to children and 
adults with disabilities since passage of the Rehabilitation Act of 
1973, 46 years ago. However, the promise remains unfulfilled. This is 
despite extensive legal protection; despite countless ``lessons 
learned'' documents, produced over 14 years since the Nation's failed 
response to Hurricane Katrina; and, despite claims that actionable 
emergency plans exist, children and adults with disabilities were 
consistently denied equal access to disaster-related programs and 
services throughout the catastrophic disasters of 2017 and 2018 and are 
still being denied in 2019. These equal access failures extend to all 
aspects of disaster response and recovery including:
  <bullet> Alerts, warnings, and notification
  <bullet> Actionable information and instructions
  <bullet> Evacuation
  <bullet> Sheltering in the most integrated setting
  <bullet> Health maintenance and acute medical care
  <bullet> Life-saving and life-sustaining goods and services
  <bullet> Food and potable water
  <bullet> Registering for disaster services including FEMA and State/
        territory emergency programs
  <bullet> Temporary and permanent housing
  <bullet> Return to home, school, work and community life
  <bullet> Disaster recovery and mitigation investments.
    In addition to the obligations that come with the expenditure of 
every Federal dollar, before, during and after disasters, the Americans 
with Disabilities Act of 1990 prohibits recipients from discriminating 
on the basis of disability in the operation of public entities, public 
and private transportation systems, places of public accommodation, and 
certain testing entities.
    In order to ensure compliance, recipients must provide program 
access, ensure effective communication, and provide physical access for 
persons with disabilities in developing budgets and in conducting 
programs and activities.
    The U.S. Supreme Court decided in its 1999 Olmstead decision that 
the Americans with Disabilities Act requires provision of services to 
individuals with disabilities in the ``most integrated setting 
appropriate to the needs of the individual''.
    In 2007, the U.S. Department of Justice instructed State and local 
governments in their ADA Best Practices Tool Kit for State and Local 
Governments, Chapter 7 that ``The ADA requires people with disabilities 
to be accommodated in the most integrated setting appropriate to their 
needs, and the disability-related needs of people who are not medically 
fragile can typically be met in a mass care shelter. For this reason, 
people with disabilities should generally be housed with their 
families, friends, and neighbors in mass care shelters and not be 
diverted to special needs or medical shelters.'' . . . ``Special needs 
and medical shelters are intended to house people who require the type 
and level of medical care that would ordinarily be provided by trained 
medical personnel in a nursing home or hospital.''
    ``The ADA requires emergency managers and shelter operators to 
accommodate people with disabilities in the most integrated setting 
appropriate to their needs, which is typically a mass care shelter'' . 
. . ``Local governments and shelter operators may not make eligibility 
for mass care shelters dependent on a person's ability to bring his or 
her own personal care attendant.''
    Despite this, the use of ``medical special needs shelters'', 
``medical friendly shelters'', ``special needs shelters'', ``Federal 
Medical Stations'' and other terms describe the only type of emergency 
sheltering provided for many individuals with disabilities living in 
the community and not appropriately served in a nursing home or 
hospital. The use of these facilities has been prevalent in many of the 
recent disasters requiring evacuation of disaster-impacted communities.
    These shelters have operated in Florida, Louisiana, South Carolina, 
North Carolina, Virginia, and other States with Federal disaster 
declarations over the past 3 years with people being sheltered in what 
is frequently described as circumstances that are ``less than 
optimal''.
    The use of any of these facilities to meet the disaster-related 
sheltering needs of individuals with disabilities who ``don't require 
the type and level of medical care that would ordinarily be provided by 
trained medical personnel in a nursing home or hospital''\3\ must be 
halted. Each of these facilities is a place of public accommodation and 
most receive some Federal funds. Thus, these facilities must comply 
with Title II of the ADA and Section 504 of the Rehabilitation Act.
---------------------------------------------------------------------------
    \3\ https://www.ada.gov/pcatoolkit/chap7shelterprog.htm.
---------------------------------------------------------------------------
    We have also seen the use of ``evacuation centers'', including 
those funded with FEMA P-361 grant funds,\4\ which, despite the grant 
instructions, are repeatedly described by local and State government as 
``different than shelters'' and ``not required to provide disability 
accommodations'' such as accessible bathrooms, personal assistance, 
interpreters, cots, and other reasonable accommodations.
---------------------------------------------------------------------------
    \4\ https://www.fema.gov/fema-p-361-safe-rooms-tornadoes-and-
hurricanes-guidance-community-and-residential-safe-rooms.
---------------------------------------------------------------------------
    Stakeholders report civil rights violations that were due to 
failure to provide necessary guidance, training and technical 
assistance to State and local government; failure to monitor 
compliance; and failure to enforce civil rights laws that apply before, 
during, and after disasters.
    Contributing to these failures is contradictory information about 
the requirements for sheltering people with disabilities in emergencies 
and disasters. Further confounding the problem with inconsistent civil 
rights guidance and lack of enforcement from the responsible Federal 
agencies is a lack of clarity about which agency has ultimate 
responsibility for and ownership of the obligation for enforcing the 
requirement to provide sheltering to people with disabilities in the 
most integrated setting throughout emergencies and disasters.
                   hhs office for civil rights (ocr)
    ``Being mindful of all segments of the community and taking 
reasonable steps to provide an equal opportunity to benefit from 
emergency response efforts will help ensure that responsible officials 
are in compliance with Federal civil rights laws and that the disaster 
management in the affected areas by Hurricane Florence is 
successful.''\5\
---------------------------------------------------------------------------
    \5\  https://www.hhs.gov/about/news/2018/09/13/ocr-issues-guidance-
to-help-ensure-equal-access-to-emergency-services-medical-information-
during-hurricane-florence.html.
---------------------------------------------------------------------------
          hhs centers for disease control and prevention (cdc)
    ``Somewhere between a temporary shelter and temporary hospital, a 
Federal Medical Station is a non-emergency medical center set up during 
a natural disaster to care for displaced persons with special health 
needs--including those with chronic health conditions, limited 
mobility, or common mental health issues--that cannot be met in a 
shelter for the general population during an incident.''\6\
---------------------------------------------------------------------------
    \6\ https://www.cdc.gov/phpr/stockpile/fedmedstation.htm.
---------------------------------------------------------------------------
  hhs office of the assistant secretary for preparedness and response 
                                 (aspr)
    Federal Medical Stations ``sustain from 50 to 250 stable primary or 
chronic care patients who require medical and nursing services.'' 
Federal Medical Stations provide ``low acuity care for patients with 
chronic illnesses whose access to care is impeded due to the 
disaster.''\7\
---------------------------------------------------------------------------
    \7\ https://www.phe.gov/Preparedness/support/medicalassistance/
Pages/default.aspx.
---------------------------------------------------------------------------
                                  doj
    ``Shelters are usually divided into two categories: (1) ``Mass 
care'' shelters, which serve the general population, and (2) ``special 
needs'' or ``medical'' shelters, which provide a heightened level of 
medical care for people who are medically fragile. Special needs and 
medical shelters are intended to house people who require the type and 
level of medical care that would ordinarily be provided by trained 
medical personnel in a nursing home or hospital.''\8\
---------------------------------------------------------------------------
    \8\ https://www.ada.gov/pcatoolkit/chap7shelterprog.htm.
---------------------------------------------------------------------------
         dhs office for civil rights and civil liberties (crcl)
    ``Under Federal civil rights laws, sheltering services and 
facilities must be accessible to children and adults with disabilities. 
Sheltering and temporary housing of persons with disabilities must take 
place in the most integrated setting appropriate to the needs of the 
person, which in most cases is the same setting people without 
disabilities enjoy. See, Guidance on Planning for Integration of 
Functional Needs Support Services in General Population. The intent of 
this Federal guidance is to ensure that individuals are provided 
appropriate accommodations and are not turned away or moved from 
general population shelters and temporary housing or inappropriately 
placed in other, more restrictive, environments (e.g., ``special 
needs'' shelters, institutions, nursing homes, and hotels and motels 
disconnected from other support services).''\9\
---------------------------------------------------------------------------
    \9\ https://www.dhs.gov/sites/default/files/publications/notice-
nondiscrimination-during-disasters.pdf.
---------------------------------------------------------------------------
                                  fema
    1. ``Segregating children and adults with and without disabilities 
        who have access or functional needs and those with whom they 
        are associated from general population shelters to ``special 
        needs'' shelters is ineffective in achieving equitable program 
        access and violates Federal law. People with disabilities are 
        entitled by law to equal opportunity to participate in 
        programs, services, and activities in the most integrated 
        setting appropriate to the needs of the individual. 
        Additionally, children and adults with and without disabilities 
        who have access and functional needs should not be sheltered 
        separately from their families, friends, and/or caregivers 
        because services they require are not available to them in 
        general population shelters.''\10\
---------------------------------------------------------------------------
    \10\ https://www.fema.gov/media-library-data/20130726-1831-25045-
7316/fnss_guidance.pdf.
---------------------------------------------------------------------------
    2. ``Providers must be aware that they may fall into more than one 
        category of provider. For example, a State agency that receives 
        Federal financial assistance must comply with laws that apply 
        to Federal financial assistance recipients as well as to laws 
        that apply to State and local governments. Non-profit 
        organizations that receive Federal financial assistance to 
        provide food, clothing, shelter, or transportation in 
        connection with an emergency must comply with obligations 
        applicable to recipients of such assistance as well as 
        requirements generally applicable to nonprofit organizations 
        that provide services to the public.''\11\
---------------------------------------------------------------------------
    \11\ https://www.fema.gov/media-library-data/20130726-1617-20490-
6430/section689refer- enceguide.pdf.
---------------------------------------------------------------------------
    Despite this, the U.S. Department of Health and Human Services 
Centers for Medicare and Medicaid repeatedly issue waivers to States in 
``Public Health Emergency Declarations'' which allow States to place 
individuals with disabilities directly into nursing homes from their 
own home or from hospital beds to make room for others who may need 
that bed, regardless of the needs of the individual for nursing home 
level care. This is in direct violation of the Americans with 
Disabilities Act and the Rehabilitation Act.
    These waivers typically allow:
  <bullet> waiver of the 3-day hospitalization requirement before 
        eligibility for nursing home admission, because of ``shelter 
        needs'' not the needs of the individual.
  <bullet> permission to move acute care hospital patients to nursing 
        homes based on the needs of other patients, not their own level 
        of care needs
  <bullet> placement of individuals who ``need skilled nursing care as 
        a result of the emergency'', without any defining criteria to 
        protect the civil rights of eligible disaster-impacted 
        individuals with disabilities.
    The Partnership filed a complaint with the Department of Justice, 
Department of Homeland Security, Department of Health and Human 
Services, and FEMA in September 2018. We were granted a ``listening 
session'' in November 2018. There has been no further action taken to 
address this conflicting guidance to States, and as recently as last 
week, another waiver was issued to Louisiana allowing nursing home 
placement of disaster-impacted people.\12\
---------------------------------------------------------------------------
    \12\ https://www.hhs.gov/about/news/2019/07/12/azar-declares-
public-health-emergency-louisiana-tropical-storm-barry.html.
---------------------------------------------------------------------------
    Regardless of the Federal agency ultimately responsible for 
ensuring the rights of people with disabilities in disasters, at the 
heart of these violations of the rights of people with disabilities is 
a total failure on the part of FEMA to have its Congressionally-
mandated Disability Coordinator implementing her responsibilities as 
defined in the Post-Katrina Emergency Management Reform Act of 2006. 
These responsibilities include:
  <bullet> ensuring that the needs of individuals with disabilities are 
        being properly addressed in emergency preparedness and disaster 
        relief;
  <bullet> consulting with organizations that represent the interests 
        and rights of individuals with disabilities about the needs of 
        individuals with disabilities in emergency planning 
        requirements and relief efforts in the event of a natural 
        disaster, act of terrorism, or other man-made disaster;
  <bullet> ensuring the development of training materials and a 
        curriculum for training of emergency response providers, State, 
        local, and Tribal government officials, and others on the needs 
        of individuals with disabilities;
  <bullet> ensuring the availability of accessible transportation 
        options for individuals with disabilities in the event of an 
        evacuation;
  <bullet> ensure that the rights and wishes of individuals with 
        disabilities regarding post-evacuation residency and relocation 
        are respected.
    The Partnership and our member organizations have continually 
attempted, since she first assumed her position in 2017 to consult with 
and collaborate with the FEMA Disability Coordinator, without success.
    We are the Nation's organizations that represent the interests and 
rights of individuals with disabilities about the needs of individuals 
with disabilities in emergency planning requirements and relief efforts 
in the event of a natural disaster, act of terrorism, or other man-made 
disaster. The Disability Coordinator has also stopped the FEMA 
Individual Assistance Directorate from collaborating with us, and it 
wasn't until Senator Casey reached out to FEMA that we were granted an 
invitation to meet with FEMA senior leadership. This meeting requested 
by one of our community leaders 3 months ago has not yet been 
scheduled.
    We have heard from many of the FEMA Disability Integration staff 
that they have been directed not to speak with us, and disability 
leaders in disaster-impacted communities report a continual lack of 
local presence of FEMA-qualified disability integration cadre 
representatives. We have also been told that the Cadre has been 
discontinued and most of the trained and qualified disability experts 
have left the agency. Over a year ago, we were told by the Disability 
Coordinator that FEMA would be hiring Disability Integration 
Specialists in every State and training the entire agency to ensure 
qualified disability integration experts would be ensuring the rights 
of disaster-impacted people with disabilities would be protected by 
FEMA. However, it appears that only one Disability Coordinator has been 
hired in TX, existing training has been discontinued, and a contract to 
develop new training has not yet been awarded. Further, at least one of 
the Regional Disability Specialist positions, Region IV, remains 
unfilled after an 18-month vacancy--a region that has sustained 
repeated disasters over the past 2 years.
    In its May 24, 2019 report to President Trump, Preserving Our 
Freedom: Ending Institutionalization of People with Disabilities During 
and After Disasters the National Council on Disability made the 
following recommendations:
  <bullet> The Department of Justice (DOJ), the Department of Health 
        and Human Services (HHS), the Department of Homeland Security 
        (DHS), and the Department of Housing and Urban Development 
        (HUD) monitor and enforce the Americans with Disabilities Act 
        (ADA) Olmstead integration mandate and the Rehabilitation Act 
        obligation to use Federal funds in such a way that people are 
        served in the most integrated setting appropriate to their 
        needs.
  <bullet> All relevant Federal agencies engage with National, State, 
        and local coalitions of disability-led organizations and 
        stakeholders.
  <bullet> DOJ assesses the equal access and non-discrimination civil 
        rights compliance performance of the American Red Cross and 
        other shelter and mass-care providers in relation to actions 
        resulting in institutionalization of disaster survivors with 
        disabilities.
  <bullet> The Federal Emergency Management Agency (FEMA) explore ways 
        to expeditiously modify its Individual Assistance registration 
        process to curtail the incidence of institutionalization of 
        individuals with disabilities.
  <bullet> DHS/FEMA and HHS/Administration for Community Living (ACL) 
        provide grant funds to support Independent Living Centers in 
        supporting disaster-impacted people with disabilities in their 
        community. (This funding should incorporate all 5 core services 
        of Independent Living Centers, including their obligation to 
        prevent and divert institutionalization of disaster-impacted 
        people throughout disaster response and recovery.)
  <bullet> Relevant Federal agencies integrate disaster-related 
        services for veterans with disabilities with all other 
        emergency and disaster services in order to address the current 
        gap in coordination.
  <bullet> Legislation be introduced and swiftly enacted to address all 
        gaps in meeting the civil rights obligations to people with 
        disabilities impacted by disasters.
    In June 2019, the Government Accountability Office (GAO) released a 
report entitled, FEMA Action Needed to Better Support Individuals Who 
are Older or Have Disabilities.
    The GAO report was requested by a bipartisan and bicameral group of 
17 Congressional committee leaders to evaluate FEMA's disaster 
assistance for older Americans and individuals with disabilities.
    The findings detail what the Partnership has attempted to address 
with FEMA since Hurricane Harvey made landfall in August 2017. Among 
these are FEMA's system-wide failure to ensure disaster-impacted people 
with disabilities and older adults are provided with equal access to 
FEMA assistance programs and critical needs services, such as food, 
water, and health care in the 2017 hurricanes.
    The GAO findings also evaluate the 2018 restructuring of the FEMA 
Office of Disability Integration and Coordination (ODIC), which further 
dismantled critical supports to disaster-impacted people with access 
and functional needs, and the communities and responders serving them, 
without developing, implementing, or communicating a replacement plan.
    The GAO report provides recommended actions and an agreed time 
line, stretching over a year into 2020, for FEMA to implement.
    However, these plans are hollow due to the continued silence toward 
disability community leaders and key stakeholders from FEMA's Office of 
Disability Integration and Coordination, the Individual Assistance 
Division, and FEMA's Administrator.
    Immediately after the GAO report was released, two bipartisan, 
bicameral bills were introduced by Senator Robert Casey, Senator Susan 
Collins, Congressman James Langevin, Congressman Chris Smith, 
Congresswoman Donna Shalala, and Congresswoman Jenniffer Gonzalez-Colon 
to address the urgent need to protect every citizen by meeting the 
Federal Government's obligations to underserved and multiply 
marginalized people with disabilities, older adults, and people who 
also have access and functional needs.
    The Real Emergency Access for Aging and Disability Inclusion for 
Disasters Act (REAADI) S-1755 and HR-3208 and the Disaster Relief 
Medicaid Act (DRMA) S-1754 and HR-3215 will work together to provide 
solutions that help individuals maintain their health, safety, and 
independence before, during, and after disasters by:
  <bullet> Funding research;
  <bullet> Developing and delivering technical assistance and training;
  <bullet> Creating a National commission with people with 
        disabilities, older adults, experts on disability inclusive 
        emergency management and Government and community stakeholders 
        to provide guidance on disability and aging issues before, 
        during, and after disasters;
  <bullet> Providing uninterrupted access to Medicaid services when 
        recipients must evacuate across State lines;
  <bullet> Department of Justice review of ADA non-compliance 
        settlement agreements in preparedness, response, and recovery 
        efforts;
  <bullet> Government Accountability review of Federal funds expended 
        in disasters to ensure compliance with Rehabilitation Act 
        requirements.
    We call on Congress to quickly enact these bills into law before 
the next disaster strikes.
    Despite years of planning, people with disabilities and older 
adults continue to pay the price for our collective emergency planning 
shortfalls. Many are still without the basic necessities to meet their 
independence, safety, and health maintenance needs. Many more have been 
denied their basic right to equal access to Federally-funded emergency 
programs and services.
    The people most knowledgeable about the needs of the people in 
their own community are expected to volunteer their time, while 
Government and the disaster business giants get grants, donations, and 
tax-payer dollars to perpetuate strategies long proven to be bad for 
individuals and just as bad for communities.
    The time to monitor and enforce the laws is overdue and effective 
practices for whole community inclusion must be led by experts in 
disability and aging inclusive emergency management.
    It's time to stop admiring the problems. It's just not an option to 
fail again. The Partnership for Inclusive Disaster Strategies remains 
fully committed to working collaboratively with FEMA, DHS, HHS, and our 
Government to ensure that the rights and disaster-related needs of the 
61 million Americans with disabilities, over 50 million older adults, 
and countless others who also have access and functional needs are no 
longer denied. Until we all join forces and work together--led by those 
of us with lived experience--our families, neighbors, and communities 
remain in harm's way as soon as the next flood, fire, tornado, 
hurricane, earthquake, terrorist attack, or other disaster strikes.
    The Partnership and our allies from across the country are looking 
to Congress for your leadership and appreciate the opportunity to speak 
with you today.

    Mr. Payne. The Chair now, in the interest of time, the 
gentleman from New Jersey--the Chair will defer and recognize 
the gentleman from New Jersey, Mr. Pascrell, for questions.
    Mr. Pascrell. Thank you, Mr. Chairman, for that courtesy.
    Just good to be at Saint Peter's, a Jesuit institution. 
Having gone to Fordham myself, across the river, this is a good 
place to learn, and this is a good place to a hearing like 
this. They go together very nicely.
    I am very, very concerned and have been particularly the 
last few years, Ms. Curda, of FEMA. On the Ways and Means 
Committee, we look at these budgets very, very carefully and 
what they ask for. You are the spokesman for FEMA today. I am 
not here to beat up on FEMA.
    But the GAO did a report very specific to what you talk 
about, what you did talk about in a very, very reasonable way, 
I thought. But my concern is we see a pattern here, I see a 
pattern, and I want to ask you a very simple question at the 
beginning. Does FEMA have the resources that can address the 
very problems we are talking about today?
    Of course, the GAO has some questions about that.
    Ms. Curda. Yes, we did not analyze whether they have an 
appropriate amount of resources. However, they do have a large 
deployable staff of people that could be sent out following 
hurricanes and disasters. They have this sort of new vision, 
which involves training all the staff to have disability 
competency and to be able to help people following disasters.
    However, they haven't established training for those people 
yet, and so it is a little unclear to us how those deployed 
resources are going to be put to effective use.
    Mr. Pascrell. Well, we need people to do the very thing we 
are talking about here today. You don't have the people, you 
don't have the resources. There are so many vacancies that have 
not been filled. It reminds me of the rest of the 
administration.
    So I know in a dictatorship, you have very few people to 
worry about in the administration because there is only one 
person making all the decisions. We are a democracy. So we need 
input.
    You have heard from each of the people here today--in fact, 
I go to Major Bucchere in his statement, which says it all. 
Most importantly, he wrote and presented to us, we learned 
about the significant challenges faced by some of our more 
vulnerable residents, but we also learned how to incorporate 
their experience, their expertise into the planning process.
    I think that is a profound statement. After my many years 
in the Congress, I didn't see too many profound statements. So 
in other words, you are going to the very people who have the 
problems maybe, which we all do, by the way. But we are talking 
about particular problems here. We are asking them in our 
planning to protect them and provide safety. What do you think? 
What should be done? What didn't you have?
    I don't see that in FEMA. Maybe I could be enlightened, or 
maybe we should be listening to these people there and be 
enlightened, hopefully. Because that GAO report is not a good 
one. You know which one I am talking about?
    You don't accept that as the end product, then in other 
words, we have got--we can rest on whatever laurels we have. 
You don't believe that, do you?
    Ms. Curda. I am sorry. What is the question?
    Mr. Pascrell. You don't rest on the laurels of what has 
happened. You see the problem just as the GAO made a report 
about FEMA.
    Ms. Curda. Yes.
    Mr. Pascrell. We have had more hurricanes. We have had more 
natural disasters. It seems to me I see very little improvement 
in FEMA, to be very honest with you. I fought for every dollar 
for FEMA because I think it is necessary. But if the 
administration, whatever that administration may be and 
whenever it does exist, if they are not cooperating with us, if 
they are not cooperating with you and the folks that are here, 
what the heck--you know, what are we doing, you know? We are 
massaging each other.
    We are talking about serious business here, Mr. Chairman, 
and this hearing today----
    Mr. Payne. I recognize the gentleman for another 3 minutes.
    Mr. Pascrell. This problem today that we see is not going--
you know, is not going to go away. So the Disability 
Integration and Coordination Office, can you recount how are 
special needs populations informed about transportation and 
shelter resources in an emergency evacuation?
    Ms. Curda. Those--the responsibility for the first response 
following a disaster rests primarily with State and local 
responders, such as the folks at the table.
    Mr. Pascrell. I am sorry?
    Ms. Curda. The responsibility for initial response 
following a hurricane rests primarily with the State and local 
providers, such as those here at the table.
    Mr. Pascrell. Then I will ask the Major then. Because you 
do have some responsibility according to the mission of FEMA. 
Let me ask the Major that same question.
    Major Bucchere. So one of the main ways that we connect 
with the DAFN population is through technology, and we have NJ 
Transit has a link right to our Register Ready platform, and we 
can help provide, you know, access points, transportation, et 
cetera, for the vulnerable populations in an evacuation.
    Mr. Pascrell. Do you communicate with FEMA?
    Major Bucchere. Yes.
    Mr. Pascrell. Are they cooperative?
    Major Bucchere. Yes.
    Mr. Pascrell. Let me ask the next question. What would you 
suggest to help what we are talking about today, facilitate 
what we want to do, what the Chairman is anxious to do and has 
been working on day-in and day-out because he is an official 
Member of Homeland Security?
    I am not there anymore. What would you suggest?
    Major Bucchere. Certainly any resources by way of financial 
help that we can get would be beneficial. When you talk about 
FEMA staff being trained in a wide variety of areas, as opposed 
to subject-matter expertise in dealing with these vulnerable 
populations, you are asking a lot of that staff person in a 
disaster.
    In addition to that, you know, FEMA has historically been 
very good at sending surge staff in after a disaster and 
staying on-board for a period of time. But what we see is that 
FEMA is very transient, and they come, they help for a while, 
and then they move on to the next disaster. With that movement 
causes an interpretation--you know, various interpretations in 
rules, policy. It creates hurdles at the State, county, and 
local levels.
    So we would like not only additional training for FEMA 
staff on subject-matter expertise to help these populations, 
but embedded personnel to stay with the States and territories 
through a disaster to have consistency in interpretation of 
policy.
    Mr. Pascrell. We have had under Republican and Democratic 
administrations very excellent Directors for the most part. We 
had some problems back at Katrina, but that is yesterday. This 
is today.
    I have asked on my own, Mr. Chairman, and I will conclude 
with this, 20 Congressman at random--Democrats, Republicans--
only one was able to even tell me who the head of FEMA is now.
    I yield. Thank you, Mr. Chairman.
    Ms. Payne. Thank you, Mr. Pascrell. That is a tough 
question. I might have to think about that myself who the head 
of FEMA is these days.
    But I would like to thank the gentleman for his questions. 
I will now move on to questions myself. I recognize myself.
    Ms. Curda, in the 2017 storms, FEMA sent an average of 55 
disability integration advisers to help with the response and 
recovery after the disaster. Now they start with an average of 
5 whose leadership--who advise the leadership rather than go 
out into the field. Can you describe FEMA's rationale for this 
change, this drastic, dramatic change?
    Ms. Curda. All I can say is that what they have articulated 
to us is their view that rather than having specialized people 
in the field, they believe that they can serve more people if 
they have trained everybody, all deployable staff and all 
program staff in disability competency. That is what they have 
told us is their vision for this change.
    Mr. Payne. But I mean going from 55 to 5 seems dramatic at 
best, drastic. Such a change, I mean, how are you able to 
sustain the same type of support with that dramatic a change in 
staffing?
    Ms. Curda. It is still unclear to us how that will--how 
effective that will be. We looked at the 2017 hurricanes and 
the response, and we did identify a lot of problems with the 
response and made 7 recommendations to FEMA to improve how they 
do this. But, so we have not yet evaluated how this new model 
is working.
    Mr. Payne. I would urge you to definitely try to focus on 
that and come up with some type of response to that, please.
    Ms. Roth, any comment you would like to make with respect 
to this?
    Ms. Roth. One of FEMA's biggest challenges began to be 
addressed a number of years ago by developing a qualification 
system to ensure that the folks who were being deployed by the 
Federal Government have the qualifications necessary to meet 
certain responsibilities. One of the Federal Government's 
primary responsibilities is to make sure that every Federal 
dollar that is either spent by the Federal Government or given 
to others to spend complies with civil rights obligations.
    The responsibility that FEMA has is to make sure that 
qualified people are doing what's necessary to make sure that 
the protections of people with disabilities are assured 
throughout disasters. It is very difficult to understand how a 
generalized work force who doesn't have qualifications in the 
very things that FEMA set out to develop qualifications for 
could possibly meet those obligations.
    We are talking about investments of billions of dollars 
that every dollar must comply with those obligations, and yet 
unqualified people are now dealing with life and death, life-
saving, life-sustaining, and the futures of 26 percent of the 
population, people with disabilities.
    Mr. Payne. And every dollar, well, good luck with that.
    Major Bucchere, we have heard reports that the process to 
apply for FEMA aid is confusing and cumbersome and creates 
unnecessary hurdles for low-income individuals. Many simply 
give up before making it through the entire process.
    After Sandy, did you hear from survivors that the process 
to apply for housing assistance was too onerous, and how would 
you recommend simplifying that process?
    Major Bucchere. Yes, Mr. Chairman. I certainly would say it 
is onerous. It is cumbersome. In dealing with it at the State 
level, as an example, we are dealing with IT issues right now 
and FEMA rolling out new IT programs that aren't compatible 
with our own. So we are doing twice the work.
    So now imagine you are in a disaster. You have lost 
everything, and now you are trying to navigate a system, and 
you are a low-income individual. So it is very tough.
    One of the things that we would like to see FEMA take a 
look at in general is the individual assistance award amount. 
When you are talking about an individual assistance award of 
$34,900 with no cost-of-living adjustment, it is tough. Here in 
the Northeast, it is clearly more expensive to live here than 
it is in other areas of the country.
    We would also like FEMA to take a look at separating out 
renters, you know, the cost of rent from this award. Because 
you have individuals that are spending every last dollar of an 
award on rent and don't have the necessities that they need, 
like simple things like food and clothing.
    You know, some of the other things that we would like to 
see, we would like FEMA to move ideally to a one-stop shopping 
experience. When you have multiple Federal programs, you have 
low-income individuals, it is tough to navigate the process. We 
would like to see us come to a day when an individual can come, 
log on, enter their personal information, and have that system 
tell them exactly what they are eligible for.
    We understand there are challenges. These people have to be 
able to get to a computer. They have to be able to navigate the 
process. We have taken steps at our level, at the State level.
    We have a State library initiative where we are pushing out 
information, working with the State library on personal 
preparedness, educating them on the programs that are available 
to our most vulnerable residents. They, in turn, are working 
with the county and local libraries to be a resource for that 
population where those individuals can come in, work with the 
library staff and navigate that tough, onerous system.
    We also think that there should be an agreement and 
deadlines for these programs. Quite often, you have the SBA 
come in early on to offer loans and then are gone. You have 
people that are waiting to see what aid is available to them. 
Do they, do they not have insurance? Are they getting an 
insurance award? Then SBA has come and gone.
    We would also like to see the SBA move to offer micro loans 
to low-income individuals to just help them rapidly get back on 
their feet.
    Mr. Payne. You know, that is interesting you mention the 
availability of a one-stop type situation, and so you are 
saying that you work with the libraries in order to provide a 
portal for these individuals to come, or maybe even that would 
be a good idea for maybe in these circumstances to have FEMA 
set up a place where people can go to access the computer for 
that service?
    Major Bucchere. Yes. This is a multi-pronged initiative. 
Certainly in the recovery phase, we would leverage that 
relationship with the State library who, again, then connects 
with the county and local libraries. We work with them on 
everything from individual preparedness to recovery on the back 
end.
    What we are hoping is that, you know, those who may not 
have a computer--maybe they only have a cell phone. You can 
imagine navigating an application through a cell phone is not 
that easy. We would hope that they would make that trip to the 
library, right to the public library, and that connection that 
we are making--State, county, local--you know, that 
relationship building would ultimately benefit our residents.
    Mr. Payne. Thank you.
    Does the gentleman have another question he would like to 
pose before----
    Mr. Pascrell. No, I am good. Thank you.
    Mr. Payne. You are good. OK. Let me ask Ms. Boyd, after 
Sandy, can you discuss the benefits in New Jersey of having 
FEMA's disability integration advisers on the ground-assisting 
disaster survivors?
    Ms. Boyd. Sure. When Sandy hit in October 2012, my 
recollection is that the disability integration adviser program 
was fairly new at that time, and I was in the role then as 
chair of NJ GAINED, and I was able to interact with a small 
group of disability integration advisers and specialists who 
assisted New Jersey by working in the field, securing durable 
medical equipment, and sharing information and resources.
    They also, for example, aided individuals and groups at 
senior living facilities when power was out and supplies were 
needed in other high-rise buildings and ultimately went on to 
work with the long-term recovery groups.
    One of the individuals at that time who worked with me was 
already familiar with a lot of the projects we had and our 
partners because he attended the NJ GAINED meetings and kept in 
contact with me as different projects arose and still does to 
this day.
    We continue to partner on various projects with both the 
disability integration specialists and adviser from FEMA Region 
2. They have been helpful in pulling in other staff from FEMA, 
including the VAL, members of FEMA FIT, and others when we have 
needs or questions.
    The one concern I had at the time was that some of the 
folks that were deployed were unfamiliar with the resources. So 
that is why I have worked very hard to maintain a close 
relationship with the staff that is currently working within 
the region, and they have partnered with me and other 
stakeholders to providing trainings to NJ GAINED members and 
other groups, especially the core advisory groups and the 
county AFN coordinators, and are currently working on a 
presentation and a toolkit to help the counties that are 
currently working on setting up CAGs better understand what 
that process is.
    Then they will work with me to provide briefings to those 
who are spearheading the CAGs to get them off the ground and 
really brainstorm about the issues that need to be addressed. I 
also support the hiring of--for more funding so that folks can 
be hired at the local level to support emergency management, 
especially the vulnerable populations who might be affected by 
local emergencies and rely on the staff that is there before 
FEMA can get out to assist.
    Mr. Payne. Let us see, Ms. Roth, as a former head of the 
Office of Disability Integration and Coordination, what are 
your thoughts on FEMA's outreach to advocacy groups such as 
yours in the wake of a disaster, and are they effectively 
leveraging the help of nonprofits to improve their response?
    Ms. Roth. The Partnership for Inclusive Disaster Strategies 
is a coalition of virtually all of the disability organizations 
across the country who focus on these issues. The partnership 
itself is an organization that focuses exclusively on 
disability and disasters before, during, and after disasters.
    We have been trying since 2017 to continue working with 
FEMA's Office of Disability Integration and Coordination, and 
unfortunately, we have not been successful in that. We have had 
a couple of invitations. We have had a couple of opportunities 
for the disability coordinator to speak to groups, but we have 
had no opportunities for collaboration.
    In fact, on a regular basis, I hear from FEMA employees 
that they have been specifically told not to work with the 
disability organizations. This is a tremendous missed 
opportunity. Our members have a footprint in virtually every 
community in the country. We have the ability to support local 
organizations immediately after disasters.
    When disability integration advisers have worked with us 
until they have been told not to continue to work with us, 
together we have been very successful in meeting urgent and 
immediate needs of people who are counting on us the most to 
get this right.
    Mr. Payne. Thank you. That is very troubling to hear.
    Ms. Roth. Yes.
    Mr. Payne. For there to be some type of discouragement in 
working with organizations that are on the ground, doing the 
work, and have the information and can be a vital resource in 
moving these efforts forward, it just baffles me. But what is 
new with this organization? Just troubling.
    But let me thank the witnesses for their valuable testimony 
and the Members for their questions. The Members of the 
subcommittee may have additional questions for the witnesses, 
and we ask that you respond expeditiously in writing to those 
questions.
    Pursuant to Committee Rule VII(D), the hearing record will 
be open for 10 days. Without objection.
    Hearing no further business, this subcommittee is in 
recess.
    [Recess.]
    Mr. Payne. I welcome our second panel of witnesses. 
Unfortunately, Mr. Dorian Herrell, who is the director of the 
Emergency Management and Homeland Security for the city of 
Newark, cannot be with us today. There was extensive flooding 
in the city of Newark last night, and he is attending to that 
emergency.
    So I think this hearing is very timely. Next we have Mr. 
Luke Koppisch, who is the deputy director for the Alliance 
Center for Independence. Last, we have Dr. Laurence Flint, who 
is a representative of the New Jersey Chapter of the American 
Academy of Pediatrics and serves on the disaster preparedness 
committee for the organization.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each of the witnesses to 
summarize his or her statement for 5 minutes, beginning with 
Mr. Koppisch.

 STATEMENT OF LUKE KOPPISCH, DEPUTY DIRECTOR, ALLIANCE CENTER 
                        FOR INDEPENDENCE

    Mr. Koppisch. Hello, and thank you for inviting me to 
testify at this important hearing.
    Thank you to Chairman Payne and Congressman Pascrell for 
bringing attention to this important topic.
    My name is Luke Koppisch. I am the deputy director of the 
Alliance Center for Independence. We are located in Edison, New 
Jersey, and we are a center for independent living. We are a 
503(c) nonprofit organization, and we serve Union, Middlesex, 
and Somerset Counties in New Jersey.
    The Alliance Center for Independence believes that 
emergency preparedness for people with disabilities is a civil 
rights issue. But we began working on emergency preparedness 
since 2011 during Hurricane Irene. Since then, we have trained 
over 700 people with disabilities on emergency preparedness and 
disaster, organized 2 mock shelter exercises with people with 
disabilities as well as emergency planners. We have presented 
at many conferences and conducted many trainings to emergency 
planners, people with disabilities, parents, and other people 
involved with disasters and disability.
    ACI first formed the core advisory group along with FEMA 
and has been working with emergency managers as well as FEMA, 
as well as New Jersey VOAD, and the American Red Cross.
    ACI really encourages people to take responsibility for 
their own emergency planning. We teach individuals with 
disabilities how to prepare, how to communicate with emergency 
managers, as well as how to put emergency preparedness plans 
into place before a disaster hits. We also train people on 
preparing go bags and really to shelter in place, if that is 
something that is an option for people.
    During Superstorm Sandy, we were called into action to 
provide assistance to people with disabilities, survivors of 
the storm in our catchment area. Our staff worked and called 
3,000 consumers of ours and offered assistance, and the 
assistance ranged from financial assistance to where they go 
for help with FEMA, to who to call to get durable medical 
equipment.
    We also volunteered our time to help with Portlight 
Inclusive Disaster Strategies to operate a hotline for 
survivors of Hurricane Harvey 2 years ago. So we have a lot of 
experience.
    This work that we do is extremely important because 54 
million people in the United States have a disability, 
including 3 million children. Sixty-one percent of people with 
disabilities have not made a plan to quickly and safely 
evacuate their homes. Only 24 percent of people with 
disabilities have made emergency plan preparations specific to 
their disability.
    Two-point-four million people with a disability have 
medical equipment that require electricity. My power was out 
last night. So I can see--you know, it is still out. So I can 
see why this is such a huge need to get people prepared.
    Currently, people with disabilities are 2 to 4 times more 
likely than nondisabled people to be critically or fatally 
injured during a disaster. These are all the reasons why our 
communities need to be prepared.
    Emergency preparation and response and recovery fall under 
Title II and Title III of the Americans with Disabilities Act, 
as well as the Rehab Act of 1973. To quote Paul Timmons, 
president of Portlight Inclusive Disaster Strategies, ``Right 
now, most planning occurs for people with disabilities and 
older adults, not with us. Moving forward, we need to ensure 
that there is substantial leadership and participation of 
people with disabilities during emergency planning.''
    That is really what our focus has been, our work has been. 
So I just want to go through some of the recommendations that 
we have through our work in our office. Some of the things that 
emergency planners need to consider is evacuation and training 
procedures that include people with physical, sensory, or 
intellectual disabilities, or who are autistic or experience 
anxiety or other mental health concerns.
    Accessible transportation to evacuate older persons and 
people with disabilities. We have met with New Jersey Transit 
and suggested that their Access Link service, their main ADA 
transportation service for people with disabilities, that that 
service be available during a disaster. We have general 
population shelters are ready to accommodate people with 
disabilities and provide those services for people with 
disabilities that allow them to get those services in their 
shelter rather than going into a segregated, more costly 
shelter. Special needs shelter is not something that we would 
advocate for.
    The other thing that we recommend is that planners utilize 
independent living centers like ours. We provide lots of 
different services. We are in touch with our constituents. We 
could provide counseling services. We can help alleviate social 
isolation. We could help fill out paperwork FEMA requires. We 
could set up hotlines. So we could be a resource.
    We also want to increase the number of accessible emergency 
shelters, accessible meaning accessible bathrooms staffed by 
trained personnel, staffed by personal assistants. Accessible 
meals. A lot of MREs are not accessible for people with 
disabilities. Accessible communications. The list goes on.
    Mr. Payne. Please finalize.
    Mr. Koppisch. Really, we have other recommendations that 
are in my testimony, but I think there needs to be a close 
working relationship with American Red Cross and FEMA and other 
organizations involved with disaster preparation.
    Mr. Payne. Thank you very much.
    Mr. Koppisch. Thank you.
    [The prepared statement of Mr. Koppisch follows:]
                  Prepared Statement of Luke Koppisch
                             July 23, 2019
    Hello and thank you for inviting me to testify at this important 
hearing. Thank you to Congressman Payne for bringing attention to this 
important topic. My name is Luke Koppisch, I am the deputy director of 
the Alliance Center for Independence, a 501(C)3 organization located in 
Edison, NJ. ACI is one of 11 Centers for Independent Living in NJ and 
over 400 throughout the United States. ACI extends an open invitation 
to visit our Center.
    The Alliance Center for Independence (ACI) began working on 
preparedness efforts during Hurricane Irene in 2011. Since then we have 
trained over 700 people with disabilities on disaster/emergency 
preparedness, organized 2 overnight emergency shelter simulations with 
people with disabilities and emergency managers and have presented at 
many conferences and webinars including 2 FEMA webinars. We also 
trained 100's of emergency managers and first responders on disability 
etiquette and assisting people with disabilities during a disaster. ACI 
formed the first Core Advisory Group (CAG) in NJ and have worked 
closely with emergency managers, FEMA, VOAD and the Red Cross. ACI 
encourages people to take personal responsibility during an emergency. 
We teach individuals with disabilities how to prepare, work with 
emergency managers in their communities, how to put a communication 
plan in place, create a Go Bag and to be ready to shelter in place.
    During Super Storm Sandy we were called to action providing 
guidance and assistance to survivors with disabilities in our catchment 
area of Middlesex, Somerset, and Union counties in New Jersey. Our 
staff contacted 3,000 of our consumers and offer assistance. ACI staff 
volunteered their time to assist in operating a hotline set up by 
Portlight Inclusive Disaster Strategies, Inc. to assist survivors of 
Hurricane Harvey 2 years ago.
    Our work is important because:
  <bullet> 54 million people in the United States have a disability, 
        including 3 million children with a disability.
  <bullet> 61 percent of people with disabilities have not made plans 
        to quickly and safely evacuate their homes.
  <bullet> Only 24 percent of people with disabilities made emergency 
        plan preparations specific to their disability.
  <bullet> 2.4 million people with a disability have medical equipment 
        that require electricity.
  <bullet> Currently, people with disabilities are 2 to 4 times more 
        likely than non-disabled people to be critically or fatally 
        injured in a disaster. Our communities need to be ready in a 
        disaster.
    Emergency Preparedness Response and Recovery fall under Title II 
and Title III of the Americans with Disabilities Act as well the 
Rehabilitation Act of 1973.
    According to Paul Timmons, President of Portlight Inclusive 
Disaster Strategies (PIDS), ``Right now, most planning occurs `FOR' 
people with disabilities and older adults, not `WITH' us. Moving 
forward we need to ensure there is substantial leadership and 
participation during emergency planning.''
    To truly include Americans with disabilities, we recommend that 
emergency planners and others involved in disaster preparedness, 
implement the following:
  <bullet> Current practices for communicating and broadcasting 
        emergency warnings to the public are understood by persons with 
        hearing challenges;
  <bullet> Accessibility of all emergency response communications, 
        including 9-1-1 and 2-1-1;
  <bullet> Current evacuation and training procedures need to include 
        people who require mobility support, sensory disabilities, 
        intellectual disabilities, autism, anxiety and other mental 
        health concerns;
  <bullet> Trained personnel to implement plans that include people 
        with disabilities;
  <bullet> Current transportation is accessible to evacuate older 
        persons and those with disabilities (We have met with NJ 
        Transit and suggested that Access Link's NJ Transit ADA 
        Required Transportation Service be deployed during a disaster);
  <bullet> Transit personnel are trained to operate the vehicles and 
        their accessibility features during emergencies;
  <bullet> Access to food, water, medicine, and power;
  <bullet> Information is available in accessible formats, including 
        video with captioning, audio, and plain language formats;
  <bullet> General population shelters are ready to accommodate and 
        provide services to those with disabilities instead of sending 
        them unnecessarily to segregated and more costly ``special 
        needs'' or medical shelters;
  <bullet> Utilize Centers for Independent Living to provide various 
        services before during and after a natural disaster (these 
        could include counseling services, to alleviate social 
        isolation, filling out paperwork, setting up hotlines etc.);
  <bullet> Shelters are accessible and have trained personal 
        assistants, accessible showers and toilets, flexibility in 
        meals (MREs are not accessible for many people with 
        disabilities), and equal access to communication;
  <bullet> Equal access to emergency registries operated by State, 
        Federal, and nonprofit emergency programs;
  <bullet> Improve current response time from the Red Cross, Office of 
        Emergency Management and FEMA for critical and immediate needs 
        from public
  <bullet> Service animals are admitted to shelters under the ADA are 
        shall not be separated from their owners;
  <bullet> Health maintenance items/assistive technology stay with 
        those who use mobility and communication devices, sign language 
        interpreters, and personal assistants;
    During Super Storm Sandy, there were 285 fatalities. According to 
EPA nearly 50 percent of the deaths were elderly or had disabilities.
    If implemented our recommendations will no doubt save lives in 
future disasters. We hope that the pending REAADI for Disasters ACT 
legislation will address our concerns.

    Mr. Payne. I now recognize Dr. Flint to summarize his 
statement for 5 minutes.

     STATEMENT OF LAURENCE FLINT, M.D., NEW JERSEY CHAPTER 
 REPRESENTATIVE, AMERICAN ACADEMY OF PEDIATRICS (AAP) DISASTER 
                     PREPAREDNESS COMMITTEE

    Dr. Flint. Chairman Payne, it is an honor to appear before 
you today at this important meeting to speak about the impact 
of disasters on children.
    As noted, Laurence Flint. I am certified, a board-certified 
pediatrician working in hospital in New Jersey, both in general 
pediatrics and disaster medicine, and have served as the State 
representative to the American Academy of Pediatrics Disaster 
Preparedness committee since 2016.
    Children make up 25 percent of the U.S. population and have 
unique medical and psychological needs. Although they fall 
under the umbrella category of ``vulnerable'' populations, they 
deserve attention that is customized to meet their specific 
needs. By considering which groups are at increased risk in a 
specific disaster, including those with disabilities, chronic 
illnesses, or who are economically or socially disadvantaged, 
advanced planning benefits all children.
    Children differ from adults in their physiology, behavior, 
emotional and developmental capacities, in their responses to 
traumatic events, and they are dependent on others for their 
basic physical and emotional needs. They are more susceptible 
to physical, biological, chemical hazards and are at an 
increased risk of developmental problems as well.
    Children often lack the cognitive ability to flee from 
disaster or to comprehend risk. Infants and young children 
cannot care for themselves and require access to age-
appropriate foods, including human milk or infant formula, as 
well as assistance in feeding, hygiene, and dressing.
    Security is a high priority, as children are much more 
susceptible to physical, emotional, and sexual abuse in the 
wake of disasters, particularly when they are separated from 
their families. Disasters not only put more stress on 
individuals caring for their children, but they also bring out 
criminal opportunists who use the cover of a disaster to prey 
on the most vulnerable, including our children.
    After a disaster, children and their families are likely to 
experience a host of negative mental reactions, including 
stress, depression, anxiety, PTSD, behavioral regression, 
physical symptoms, and the worsening of preexisting conditions. 
Children are among those most at risk for psychological trauma 
and behavioral difficulties after a disaster.
    Research has repeatedly confirmed that psychologically 
traumatic events in childhood can have significant life-long 
effects, such as increases in chronic disease and poor coping 
abilities. Children's limited ability to understand the nature 
of the disaster can also lead to stress, fear, anxiety, and an 
inability to cope, as well as an exaggerated response to media 
exposure. This is far worse in the age of social media.
    It is important then to have established, trusted sources 
of information for families and communities. Pediatricians and 
other health professionals can help fill those roles. 
Partnering in advance of disasters is essential to optimizing 
community mental health. Psychological recovery is a multi-
tiered process that begins with providing for the basic 
physical needs and the provision of psychological first aid 
and, later, more comprehensive counseling and mental health 
resources to support children in their communities.
    Attention to the needs of children in disasters encompasses 
a continuum of pre-disaster preparation, delivery of care and 
services during a disaster, and follow-up services in the 
disaster recovery period. Appropriate medical equipment, 
supplies, and medication specific to children of various ages 
and sizes should be readily available, as should medical and 
mental health providers with some degree of training in 
disaster-related concepts.
    Disaster preparation extends to all places that work with 
children, including schools, shelters, day cares, camps, 
hospitals, and medical offices. In the daytime, children are 
often separated from their caregivers, and processes for prompt 
family reunification are a critical component as children 
clearly do best when with their families.
    Post-disaster care and assistance is necessary to the 
effective resilience of children and their communities. The 
American Academy of Pediatrics has been at the forefront of 
addressing the needs of children in disasters through 
partnering with and advising State, local, and Federal agencies 
and by providing numerous resources to inform and educate 
professionals, parents, children, and administrators on topics 
including natural disasters, pandemics, economic emergencies, 
and terror events.
    The Disaster Preparedness Advisory Council has more than 80 
contacts, including myself, in all AAP State chapters. Some of 
the many collaborative efforts with Federal agencies include 
the HHS Office of Assistant Secretary for Preparedness 
Response, which is requiring pediatric annexes and is offering 
funding for pediatric centers of excellence, and the CDC, which 
has established its children's preparedness unit.
    We believe that continuing to build pediatric capacity 
within all areas of government and public health is crucial and 
could be facilitated by connecting with the American Academy of 
Pediatrics nationally and/or through its local chapters. 
Increased inclusion of pediatric practitioners and groups 
involved in disaster field care, such as disaster medical 
assistance teams on the Federal level or State/urban search and 
rescue teams, would enable directly meeting the needs of 
children.
    Finally, working toward centralized coordination and 
implementation of programs can help maximize delivery of care 
and standardizing of protocols and procedures on State and 
Federal levels.
    Thank you for the opportunity to testify on this critical 
topic, and thank you for your leadership on this issue.
    [The prepared statement of Dr. Flint follows:]
           Prepared Statement of Laurence E. Flint, MD, FAAP
                             July 23, 2019
    Chairman Payne, Ranking Member King, and Members of the 
subcommittee, it is an honor to appear before you today at this 
important hearing on the issue of emergency preparedness for 
underserved populations and to speak to you about the impact of 
disasters on children. I am Laurence Flint a practicing hospital-based 
pediatrician here in NJ with board certification in both General 
Pediatrics and Disaster Medicine and I have served as a State 
representative to the American Academy of Pediatrics Disaster 
Preparedness committee since 2016.
    Children make up 25 percent of the U.S. population. They have 
unique medical and psychological needs.\1\ Although they fall under the 
umbrella category of ``at-risk'' or ``vulnerable'' populations, 
children deserve attention that is customized to meet their specific 
needs and these needs must be anticipated in the disaster planning 
process. By carefully considering which groups of children may be at an 
increased, or even highest, risk in a specific disaster, including 
those with specialized or chronic health care needs or children who are 
economically or socially disadvantaged, advanced planning will benefit 
all children and the population at large.\2\ Children differ from 
adults in their physiology, behavior, emotional, and developmental 
capacities, in their responses to traumatic events and they are 
dependent on others for their basic physical and emotional needs. They 
are more susceptible to environmental dangers associated with disasters 
including physical, biological, and chemical hazards. These put them at 
increased risk of developmental problems as well. Children often lack 
the cognitive ability to flee from hazards and have a very poor 
comprehension of risk. Infants and young children cannot care for 
themselves and require access to age-appropriate foods including human 
milk/infant formula as well as assistance in feeding, personal hygiene, 
and clothing themselves.\3\ Security is a high priority as children are 
much more susceptible to physical, emotional, and sexual abuse in the 
wake of disasters and particularly in the case of separation from their 
families. Disasters not only put more stress on individuals tasked with 
the care of their children, but they also bring out criminal 
opportunists who use the cover of a disaster to prey on the most 
vulnerable including our children.
---------------------------------------------------------------------------
    \1\ National Commission on Children and Disasters. 2010 Report to 
the President and Congress. AHRQ Publication No. 10-M037. Rockville, 
MD: Agency for Healthcare Research and Quality. October 2010.
    \2\ American Academy of Pediatrics. The Youngest Victims: Disaster 
Preparedness to Meet Children's Needs. Elk Grove Village, IL: American 
Academy of Pediatrics; 2002.
    \3\ Ensuring the Health of Children in Disasters, Disaster 
Preparedness Advisory Council and Committee on Pediatric Emergency 
Medicine, Pediatrics 2015;136;e1407.
---------------------------------------------------------------------------
    After a disaster, children and their families are likely to 
experience a host of negative mental reactions including stress, 
depression, anxiety, PTSD, behavioral regression, physical symptoms, 
and worsening of preexisting conditions. Disasters also have the 
potential to cause short-term and long-term effects on children's 
psychological functioning, emotional adjustment, health, and 
developmental trajectory of children, which even may have implications 
for their health and psychological functioning in adulthood. As a 
group, children are among those most at risk for psychological trauma 
and behavioral difficulties after a disaster.\4\ Adverse childhood 
experiences, or ACEs, have been a subject of intense study in the past 
few years and the research in this area has repeated confirmed that 
psychologically traumatic events experienced during childhood, 
particularly sustained ones, have significant life-long effects such as 
increases in chronic disease and poor coping abilities. Children's 
limited ability to understand the nature of the disaster can also lead 
to stress, fear, anxiety, inability to cope, and exaggerated response 
to media exposure. This is worsened in the age of social media which 
can convey gross misinformation and sensationalist hype. It is 
important, therefore, that there be established trusted sources of 
information for families and communities. Pediatricians and other 
health professionals can help to fill those roles. Awareness of and 
partnership between pediatricians and other sources of mental health 
support are essential to optimizing community mental health. Ideally, 
these partnerships should be established in advance of a disaster. 
Psychological recovery is a multi-tiered process that begins with 
providing for the basic needs of individuals affected by a disaster 
including food, shelter, safety, supervision, communication, and 
reunification with loved ones. With that should come the provision of 
psychological first aid in the short-term and this includes providing 
timely and accurate information, offering appropriate reassurance about 
the future, giving practical strategies to facilitate coping with 
distress, and helping people identify supports in their family and 
useful resources in their communities. Later, more comprehensive 
counseling and mental-health resources should be in place to support 
children and their communities. It is important to note that children's 
adjustment should not be expected before the restoration and 
stabilization of the home, school, and community environments and 
supports for children.\5\
---------------------------------------------------------------------------
    \4\ Providing Psychosocial Support to Children and Families in the 
Aftermath of Disasters and Crises. DJ. Schonfeld, T. Demaria and the 
Disaster Preparedness Advisory Council and Committee on Psychosocial 
Aspects of Child and Family Health. Pediatrics 2015;136;e1120.
    \5\ Ibid.
---------------------------------------------------------------------------
    Attention to the needs of children in disasters encompasses a 
continuum of pre-disaster preparation, delivery of care and services 
during a disaster and follow-up services to children and their families 
in the disaster recovery period. It is necessary to have access to 
appropriate medical equipment, supplies, and medications specific to 
children of various ages and sizes and we need to ensure that medical 
and mental health providers are available and have some degree of 
training in disaster-related concepts. This extends to any facility and 
their employees who work with children including schools, day cares, 
camps, hospitals, and medical offices. Security needs are a major 
concern in these locations and in any area that children may go to in a 
disaster such as a shelter or hospital. In the daytime, children are 
often separated from their caregivers while being at school and day 
care, and it is critical to keep these children safe and accounted 
while they are not in the care of their families. Processes for prompt 
family reunification are a critical component as children clearly do 
best when with their families. Post-disaster care and assistance is 
necessary to the effective resilience and thriving of the children 
individually and to their communities as a whole.
    The American Academy of Pediatrics (AAP) has been at the forefront 
of addressing the health and emotional needs of children in disasters 
through partnering with and advising State, local, and Federal agencies 
and by providing numerous resources to inform and educate 
professionals, parents, children, and administrators across a broad 
spectrum of topics including natural disasters, pandemics, economic 
emergencies and terror events. The Disaster Preparedness Advisory 
Council (DPAC) has more than 80 contacts including myself in all AAP 
State chapters. Some of the other many collaborative efforts with 
Federal agencies include the Department of Health and Human Services 
(HHS) Office of Assistant Secretary for Preparedness & Response (ASPR) 
which is requiring Pediatric Annexes and is offering funding for 
Pediatric Centers of Excellence, and the Federal Emergency Management 
Agency (FEMA) which has a National Children's Advisor. Additionally, 
the AAP was very pleased that the Pandemic and All-Hazards Preparedness 
and Advancing Innovation Act (PAHPAI) was signed into law last month. 
This law focuses on the Nation's medical and public health preparedness 
to respond to disasters and strengthens readiness and recovery efforts 
including provisions to ensure children and adolescents are prioritized 
before, during, and after disasters, reauthorize and expand the HHS 
National Advisory Committee on Children and Disasters, and establish 
the Children's Preparedness Unit (CPU) at the Centers for Disease 
Control and Prevention (CDC) which serves as the agency's leading 
source for children's needs in public health emergencies. The AAP 
Children and Disasters website provides links to its partnership 
efforts, the Academy's on-going disaster-related projects and many 
resources to assist practitioners, parents and others.\6\
---------------------------------------------------------------------------
    \6\ https://www.aap.org/en-us/advocacy-and-policy/aap-health-
initiatives/Children-and-Disasters/Pages/default.aspx.
---------------------------------------------------------------------------
    The AAP believes that continuing to build pediatric capacity within 
all areas of Government and within public health agencies is key to 
better disaster preparedness for children. This can be facilitated by 
connecting with the AAP nationally and/or its local chapters. Also a 
greater engagement with, and inclusion of, pediatric practitioners in 
groups involved in direct on-the-ground disaster relief such as Federal 
Disaster Medical Assistance Teams (DMATs), Medical Reserve Corps (MRC), 
or Urban Search and Rescue (USAR) teams would be useful in better 
directly meeting the needs of children. Finally, working toward 
centralized coordination and implementation of programs is also an 
important step in maximizing delivery of care and standardizing 
protocols and procedures on State and Federal levels. For example, here 
in New Jersey we have over 600 school districts, all of which operate 
independently by municipality which makes it more challenging to 
implement programs on a State-wide basis.
    Thank you for the opportunity to testify on this critical topic and 
thank you for your leadership on this issue.

    Mr. Payne. Thank you for your testimony.
    Now I recognize myself for questioning.
    Mr. Koppisch, can you discuss your collaboration and 
relationship with the State and FEMA, and do you see room for 
improvement? Or do you believe this is a model for other 
States?
    Mr. Koppisch. Yes. We have collaborated with FEMA over the 
last several years. We work with the FEMA office, Jim Flemming, 
who is the integration specialist there. He helped--we worked 
with him to set up the first CAG, core advisory group, which is 
really an effort of emergency planners and people that are 
supposed to come together to really work on planning for the 
next disaster. The idea is that is to include people with 
disabilities in the planning process.
    So FEMA, we work closely with FEMA on this effort. We have 
worked with the Red Cross. We have worked with the Office on 
Emergency Preparedness. I mentioned in my testimony about two 
shelter simulations that we did, and those could not have been 
done without the work of the Office of Emergency Management in 
the counties that we had those mock exercises in.
    So could we do more? There was a lot of work that we could 
be doing to educate especially OEM about the accommodation and 
the needs of people with disabilities in a shelter and in a 
disaster in general. But the work is still going on, and we are 
happy that we formed partnerships with these organizations. But 
there is always work that needs to be done as far as 
information sharing, as far as learning about, you know, 
people's disabilities and what accommodations they need during 
these disasters and even before disasters.
    Mr. Payne. Thank you.
    Dr. Flint, we are increasingly seeing children exhibiting 
signs of mental health distress after disasters. In Florida 
after Hurricane Michael, Puerto Rico after Hurricane Maria, and 
elsewhere, children continue to suffer long after the storm 
passes. Researchers also found that after Sandy, children with 
damage to their homes were over 4 times as likely to be sad or 
depressed and over twice as likely to have problems sleeping 
compared to children from homes with no damage.
    What do you think the Federal Government can do better to 
alleviate this distress?
    Dr. Flint. Thank you.
    Clearly, the mental health component in children and 
disasters is a big one, and it is one of the long-term issues 
that needs to be addressed to be able to have these kids get 
back into doing their normal routines.
    As with anything in disaster planning, it is the idea of 
that multi-tiered process of both planning and preparedness, 
disaster response, and then post-disaster recovery. So the 
mental health aspects would go across that spectrum as well.
    So in terms of the planning process where we could use help 
is identifying the people in the areas that would have 
particular special needs, whether that be non-English speaking 
or communities with different cultural. So those identification 
of needs. Identification of providers and training of those 
providers.
    Also one of the things that personally I think is great is 
bringing in training on disaster preparedness to kids 
themselves. So things like the Teen CERT Program where children 
are actually brought into--are trained in disaster response. I 
think that is not only enriching the communities, but also 
empowering those kids as well. Ultimately, you know, having 
that ability is going to make them more resilient.
    Then in terms of the disaster response itself, as I 
mentioned in my testimony, the first part is providing the 
basic needs. No amount of counseling or mental health care is 
going to replace the security that is brought about by 
providing families with safety, shelter, food, and other basic 
physical needs that they need.
    Secondary to that is to have providers that are trained in 
psychological first aid, and that is the idea that these are 
the first people that are going to be addressing mental health 
concerns in a disaster situation. So those folks are going to 
give people access to resources. They are going to give them 
some reassurance. They are going to give them information on 
the disaster itself so that they have a little more to work 
with.
    Then, finally, in the post-disaster phase is going to be 
where the long-term counseling. So providing mental health 
services across the spectrum, which can, as noted, go on for a 
long ways. So I think that is where the help can be. Any of 
those areas where you could be of assistance is going to impact 
that.
    Mr. Payne. So it would appear that--and I could be wrong--
that it would be very difficult to be prepared for the 
psychological or the mental aspects of the trauma. Until trauma 
happens, there is no real way to, you know, prepare young 
people like, you know, ``There is a storm coming.''
    Dr. Flint. I think that is a fair statement. But I also 
think that the idea of getting more--and as disasters are 
seeming to become more--happen more and more, bringing the 
education of kids just so at least that way, they have an 
understanding, an idea, and like I said, even disaster 
preparedness training. I think the idea of personal 
responsibility and training in disasters is a really good one.
    Like I said, I think bringing that into the community is a 
very empowering thing. I think that certainly helps with mental 
resilience.
    Mr. Payne. But making sure that once the disaster does 
happen that, you know, in those first responders there are 
people that can talk to the mental health aspect----
    Dr. Flint. Absolutely.
    Mr. Payne [continuing]. As opposed to, you know, a week 
into it, but be on the scene and the initial response to it 
would be helpful.
    Dr. Flint. Certainly those with pediatric training as well. 
Just one more point. You know, I think with kids, especially, 
the most important thing is that return to structure. So 
getting basic services, including schools, up and running 
again.
    Even though it is not going to be the old normal, at least 
it is a new normal, and it is going to put them back in that 
structure. That goes a long way to mental resiliency.
    Mr. Payne. Thank you.
    Let us see, this is to both of you. You have, you know, 
shared so much with the subcommittee today, and I really 
appreciate you being here. Are there ways that Congress can be 
more helpful to you and your organizations?
    Mr. Koppisch.
    Mr. Koppisch. Sure. I think we talked a lot about funding 
and money and how I think it is the same for independent living 
centers. When I say we are nonprofit, we are very nonprofit. So 
we struggle with--we are asked to do more for little dollars. 
So we would love to do more with emergency preparedness if 
there is funding attached to it.
    We see a lot with talk about mental health services. We see 
it during Superstorm Sandy. It is hard for me to say, but we 
saw a lot of people with--adults with mental health really--
really being affected by the storm, not knowing where to go, 
not trusting who to go to, really are in need of counseling.
    Organizations that were set up to provide counseling, we 
were told were only there for people affected by the storm and 
were not set up to help people who had mental health concerns 
before the storm. So that is just one area where our center at 
least has been working more on, and we could use more training. 
We could use more funding. We could use more resources to help 
those individuals.
    A lot of the people that we work with with mental health 
concerns have their primary concern may be a physical 
disability or a cognitive disability, and so we are working 
with them on that, but also the mental health may be a 
secondary. But we work with all disabilities. When you say how 
can Congress help, we could use more money.
    Mr. Payne. OK. Thank you.
    Dr. Flint.
    Dr. Flint. I would echo many of the sentiments that Mr. 
Koppisch had said, just substitute ``children'' in there. You 
know, I think just the idea of partnering with pediatric 
services, pediatric organizations. We have done a lot, you 
know, collectively to do that.
    Certainly any legislation that is disaster-related, just to 
keep in mind the pediatric component and to bring in those that 
can speak to that to help with that legislation I think goes a 
long way.
    Mr. Payne. Thank you.
    We are seeing climate change increase the frequency and 
severity of these natural disasters. You know, we are having 
100-year climate issues every 5 years now, and the vulnerable 
and underserved often suffer those effects disproportionately. 
What steps need to be taken so underserved populations aren't 
disproportionately affected?
    Mr. Koppisch.
    Mr. Koppisch. I think some of the recommendations that I 
went through briefly in my testimony would help alleviate the 
vulnerable populations being affected disproportionately. But I 
think the key is any emergency planning should include people 
with disabilities. That is a must. It has to be done.
    What better resource in organizing emergency preparedness 
for people with disabilities than people with disabilities 
themselves? I want to address something that was said prior 
about registering for FEMA services or other services on-line. 
A lot of the people that we work with don't have access to the 
internet, cannot afford it. There is a great digital divide.
    So there needs to be a way to get information to those 
individuals who are not connected. We need to not forget about 
the old school of communicating with people. So that is 
something that is important.
    Other ways, accessible formats for people who are hearing 
impaired or visually impaired. A lot of people just are not 
getting information, and it is because it is not in an 
accessible format. I have a statistic here about the number of 
fatalities during Superstorm Sandy, 285 fatalities. According 
to the EPA, 50 percent of those were people who were elderly or 
people with disabilities.
    Now I don't know how many of that included people who just 
did not know where to go for resources or go for help, but I 
can probably guess that there is a lot of people who just 
weren't aware, and maybe the information was not accessible to 
them. So that is really important.
    Equal access to emergency registrations operated by State, 
Federal, and nonprofit emergency providers. Again, alternate 
format. So different ways rather than the printed way, rather 
than the digital way.
    So health maintenance items and accessible technology, that 
is important for people, especially those who use mobility, who 
have mobility concerns. They need to stay with them during a 
disaster. A lot of times we have heard about wheelchairs being 
separated from people or communication boards being separated 
from people during a disaster.
    Or deploying personal assistants to help individuals during 
a disaster. So I know the State has done that in the past, but 
there needs to be a better effort. People rely on others for 
assistance--walking, bathing, eating, getting around. That is 
really important to have those available during a disaster and 
especially in a shelter.
    Mr. Payne. Thank you. Dr. Flint.
    Dr. Flint. Yes, unfortunately, vulnerable populations, 
including underserved, do bear the brunt of a lot of these 
disasters just simply because the resources aren't there for 
them to be able to recover with that.
    I would say for me three things would be important to 
increasing the services there. I think, first, it is 
identifying the barriers to access within those communities and 
addressing them. I would also say that prioritizing them in 
disaster response simply because they are going to have long-
term effects that are going to go beyond other communities who 
may have greater capacity for resilience.
    Then, third, I would say that when we have new disaster 
planning procedures, I would prioritize them in terms of 
rolling them out in those communities. Certainly the responses 
are going to be more difficult in those communities, and I 
think overall we are going to gain a lot more information and 
education about rolling out different processes and procedures 
by going to those communities first and identifying the major 
problems that are there.
    Mr. Payne. Well, thank you very much. I really appreciate 
you being here and providing testimony, which on this 
subcommittee and in Homeland Security, we really use this 
testimony in order to formulate better practices by FEMA and 
different organizations and also creating legislation that 
would be helpful in these areas.
    So thank you. I want to thank you for your valuable 
testimony, and the Members for their questions, which was me.
    [Laughter.]
    Mr. Payne. The Members of the subcommittee may have 
additional questions for the witnesses, and we ask that you 
respond expeditiously in writing to those questions.
    Pursuant to Committee Rule VII(D), the hearing record will 
be open for 10 days. Without objection.
    Hearing no further business, this subcommittee stands 
adjourned.
    Thank you.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]



                           A P P E N D I X  I

                              ----------                              

Statement of Dorian Herrell, Emergency Management Coordinator, Newark, 
                               New Jersey
                              introduction
    Thank you Chairman Thompson, Ranking Member King, and Members of 
this subcommittee for holding this hearing today. I am Dorian Herrell, 
the coordinator of the Office of Emergency Management Homeland Security 
and Preparedness for the city of Newark, New Jersey. I am honored to be 
here to address the concerns of emergency preparedness for the needs of 
the underserved populations in an emergency.
    As we examine the concerns surrounding the underserved population 
during an emergency I want to first commend the responders of my 
jurisdiction for their dedication and due diligence in collaborating 
with partners, training, and exercises for greater enhanced 
capabilities. I will direct my attention to the concerns of emergency 
preparedness and the civilians that fall within the underserved 
population, the children, low-income individuals, and those with access 
and functional needs. I feel the following actions are critical to 
managing the responsibility of planning for our vulnerable groups.
    First; Outreach.--The populations at risk must be involved within 
the planning process so that they can be aware of the threats that are 
under way and become more knowledgeable about what is expected of them 
under these conditions. The community needs to know what is likely to 
happen in a disaster and what emergency organizations that may have 
available and/or immediate resources in assisting. The Community 
Emergency Response Team (CERT) training is a free program designed to 
educate citizens about how to prepare for emergencies that might impact 
their area and trains them in basic disaster preparedness skills, such 
as fire safety, light search and rescue and disaster medical 
operations. CERT members are vital to a community in time of crisis, 
especially when professional responders are not immediately available. 
Also, in creating a better-informed and prepared community, by 
providing information through social media, as well as schedule 
speakers to discuss Emergency Preparedness will help citizens in being 
better prepared. Seminars and/or presentations are free of charge and 
are conducted year round during day and evening hours.
    Training.--Emergency drills and exercises provide a setting in 
which the adequacy of the Emergency Operations Plan. Multifunctional 
exercises also produce publicity for the broader emergency management 
process, which informs community leaders and the public that disaster 
planning is under way and preparedness is being enhanced.
    Resources.--FEMA--Get Ready Now--is a guide on how to plan and 
prepare to protect your family in the event of any emergency. It 
instructs you how to build an emergency survival kit. This guide also 
speaks on Disabled and Special Needs Citizens, Senior Citizens, and 
Hurricane survival guidelines. With an Emergency Alert System in place 
to notify the community of emergencies is essential.
    The support received from the State and Federal Government is vital 
and greatly appreciated. However, by increasing funding into these 
much-needed communities, will help expand awareness throughout the city 
and State and with having an adequate stock-pile of supplies readily to 
serve the community in the event of a major, natural, man-made disaster 
or terrorist incident is paramount.
    I would like to thank you for your attention and time and look 
forward to answering any questions you may have.



                          A P P E N D I X  I I

                              ----------                              

  Questions From Chairman Donald M. Payne, Jr. for Elizabeth H. Curda
    Question 1. In its May 2019 report, GAO found that FEMA implemented 
changes to disability integration before it had offered its staff 
minimal training on its new approach to disability integration. Can you 
describe what the lack of more complete and comprehensive training 
might do to FEMA's ability to respond to underserved populations after 
a disaster?
    Answer. As noted in our May 2019 report, FEMA had no written 
plans--including milestones, performance measures, or a plan for 
monitoring performance--for developing new comprehensive disability 
integration training for all FEMA staff beyond the basic and just-in-
time training available when FEMA was implementing its new deployment 
model. We reported that, according to FEMA officials, more training is 
necessary for FEMA to accomplish its goals related to inclusive 
emergency management. We also reported that officials and others we 
interviewed in Florida, Puerto Rico, Texas, and the U.S. Virgin Islands 
said that FEMA staff did not always effectively communicate with and 
assist individuals who are older or have disabilities in completing the 
on-line registration-intake form. We continue to believe that such 
comprehensive training will better equip all deployed staff to identify 
and assist these individuals after a disaster.
    Question 2. GAO's May 2019 report documents how FEMA's new approach 
to disability integration lacked clear objectives or outcomes to 
measure success. Please explain to the subcommittee why having 
objectives and measureable goals is important when changing a program 
structure so substantially.
    Answer. As we reported in May 2019, FEMA began implementing changes 
to its disability integration approach without articulating objectives 
or desired outcomes for the approach. Each of FEMA's 10 regions 
operates relatively independently and may be affected by different 
circumstances, such as the type of disaster they are likely to face. To 
address these differences, Regional Administrators across the regions 
may determine a unique staffing structure, so a lack of common 
objectives for FEMA's new disability integration approach, which 
involves new positions, roles, and responsibilities, could result in 
inconsistent implementation across its regions. Without defining and 
communicating objectives in measurable terms, FEMA risks not meeting 
those objectives as an agency.
    Question 3. In GAO's May 2019 report, GAO found that nonprofits 
working with people with disabilities could not get information from 
FEMA about disaster survivors. Please explain why such information 
would be important, especially in the face of worsening storms and a 
FEMA that has been stretched thin in recent years.
    Answer. Our May 2019 report explained that information that FEMA 
collects from registrants, such as names and addresses, can be helpful 
to FEMA's non-Federal partners because it can help the partners, 
including nonprofits working with people with disabilities, identify 
disaster survivors who remain in need of assistance. For example, in 
Puerto Rico, representatives of a disability nonprofit explained that 
they had donated goods available, but could not effectively distribute 
them because they did not know who had already requested similar items 
from FEMA. In addition, data showing who has registered for and 
received Individual Assistance can facilitate non-Federal entities in 
identifying individuals in the community, including those who are older 
or who have disabilities, who have not applied for FEMA assistance. 
These entities can use this information to target individuals who may 
need help with FEMA's registration process. This may be especially 
important for parts of the registration process that are confusing or 
complicated, such as the disability-related questions we highlighted in 
the report. FEMA has acknowledged this by establishing a strategic goal 
of reducing the complexity of the agency, which it describes in its 
2018-2022 Strategic Plan as delivering ``assistance and support in as 
simple a manner as possible.''
    Question 4. What do you believe is the No. 1 issue FEMA needs to 
address immediately to better meet the needs of older Americans and 
people with disabilities during a disaster?
    Answer. We made 7 recommendations based on findings in our May 
report, addressing such disparate issues as data sharing, communicating 
disability-related information across FEMA programs, and delivering 
training to FEMA staff to better equip them to work with survivors with 
disabilities. We are encouraged that FEMA has already made progress 
addressing some of these recommendations. However, FEMA's current 
approach to communicating registrants' disability-related information 
across FEMA programs stands out as being the most important issue for 
FEMA to address to ensure individuals with disabilities receive the 
assistance they need, since this can have a direct impact on services. 
Our recommendation to improve this communication was the only one the 
Department of Homeland Security did not concur with, stating that FEMA 
lacks specific funding to augment the legacy data systems that capture 
and communicate registration information in registrant files. However, 
as we noted in our report, the recommendation was not solely focused on 
system changes, and there are other cost-effective ways that are likely 
to improve communication. For example, FEMA could revise its guidance 
to remind program officials to review case file notes to identify 
registrants' disability-related needs.
    Another area that stands out as being critical to FEMA's success in 
meeting the needs of disaster survivors who are older or have 
disabilities is the agency's plan for delivering training to FEMA staff 
that promotes competency in disability awareness. While the Department 
of Homeland Security agreed with our recommendation on this issue, we 
do not believe FEMA's proposed solution is sufficient to address the 
lack of comprehensive disability integration training available to 
deployed FEMA staff. FEMA's plan is to include a disability integration 
competency in the position task books for all deployable staff and to 
hire new staff to focus on disability integration before implementing 
training. We continue to believe that a plan for delivering training 
that includes milestones, performance measures, and how performance is 
monitored will better position FEMA to provide training to all staff 
that achieves its intended goals.

                                 [all]
</pre></body></html>
